<html>
<title> - MEASURING OUTCOMES TO UNDERSTAND THE STATE OF BORDER SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     MEASURING OUTCOMES TO UNDERSTAND THE STATE OF BORDER SECURITY

=======================================================================



                                HEARING

                               before the

                         SUBCOMMITTEE ON BORDER

                         AND MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2013

                               __________

                            Serial No. 113-8

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
82-582                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Keith J. Rothfus, Pennsylvania       Eric Swalwell, California
Richard Hudson, North Carolina
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Tom Marino, Pennsylvania             Loretta Sanchez, California
Steven M. Palazzo, Mississippi       Beto O'Rourke, Texas
Lou Barletta, Pennsylvania           Tulsi Gabbard, Hawaii
Chris Stewart, Utah                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
              Paul L. Anstine, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security...................................     3

                               Witnesses

Mr. Michael J. Fisher, Chief, Border Patrol, Department of 
  Homeland Security:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     8
Mr. Kevin McAleenan, Acting Assistant Commissioner, Office of 
  Field Operations, U.S. Customs and Border Protection, 
  Department of Homeland Security:
  Oral Statement.................................................    13
  Joint Prepared Statement.......................................     8
Mr. Mark Borkowski, Assistant Commissioner, Office of Technology 
  Innovation and Acquisition, U.S. Customs and Border Protection, 
  Department of Homeland Security:
  Oral Statement.................................................    15
  Joint Prepared Statement.......................................     8
Ms. Veronica Escobar, El Paso County Judge, El Paso, Texas:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

                                Appendix

Materials Submitted by Veronica Escobar..........................    41


     MEASURING OUTCOMES TO UNDERSTAND THE STATE OF BORDER SECURITY

                              ----------                              


                       Wednesday, March 20, 2013

             U.S. House of Representatives,
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Barletta, Jackson Lee, and 
O'Rourke.
    Also present: Representative Barber.
    Mrs. Miller. The Committee on Homeland Security, our 
Subcommittee on Border and Maritime Security, will come to 
order.
    The subcommittee is meeting today to examine how to measure 
our Nation's border security and our witnesses today are Chief 
Michael Fisher, chief of the United States Border Patrol, Kevin 
McAleenan, acting assistant commissioner in the Office of Field 
Operations at U.S. Customs and Border Protection, Mark 
Borkowski, who is the assistant commissioner for the Office of 
Technology, Innovation, and Acquisition at the U.S. Customs and 
Border Protection, and Judge Veronica Escobar of El Paso County 
Texas, and we certainly welcome all of our panel. I will 
introduce them a bit more in detail in just a moment.
    But how this committee and how this Congress really, this 
subcommittee, approaches border security should be based on 
answers I think to some very simple questions.
    First of all, what does a secure border actually look like? 
How do we get there? Then, how do we measure it?
    As Chairwoman of the subcommittee, I have made these 
questions certainly a focal point of our efforts here in this 
Congress. Identifying some of the principal characteristics of 
what a secure border looks like was the goal of this 
subcommittee's first hearing.
    Today, we are going to be examining what is perhaps the 
most important piece of border security, and its puzzle so to 
speak, and that is how we measure border security outcomes.
    In the past, we have based our standing of border security 
progress at how much technology or how much personnel we have 
along the border or how many linear miles of the border that 
were under operational control.
    The current conversation focuses on the record, the number 
of Border Patrol agents, on how many UAVs we have there, on the 
fact that the amount of people that we are catching is low. So 
we assume that the border must be secure, and security is 
certainly more than resources or low apprehension rates.
    Without a way to quantify effectiveness there can be really 
no sound basis for determining how secure our borders are, let 
alone justification for immigration policy decisions.
    I think it is time to change the conversation up a little 
bit. In my view I think a better way to the state of border 
security is how effective we are at keeping bad people or bad 
things out of the country; basically, we need to stop measuring 
resources and pivot to a measurement of outcomes.
    Our borders, whether that is the Southern Border or the 
Northern Border or all of our maritime borders, are very 
dynamic places that are constantly changing. Once we have 
secured a section of the border, that doesn't mean that it will 
be secured forever.
    Smugglers are always going to seek out the area of least 
resistance and how we address our border security in measuring 
that has to reflect that reality also.
    At our last hearing, Assistant Commissioner McAleenan said 
something that I want to reiterate. He said, ``There is no 
single measure that will tell the whole story at the border,'' 
which I thought was very true. I certainly agree with that, 
which is why I am certainly open to a series of measures that 
could better inform the security and the vastly different 
terrain along the border or at our ports of entry and in the 
maritime environment.
    Unfortunately, such measures do not exist today. They don't 
seem to be ready in the near-term. The Department of Homeland 
Security officials have been telling us for quite a few years 
that, sort of, the next holistic measure called the Border 
Condition Index is on its way and we have yet to see--to have 
it make its appearance.
    Although I certainly have said that I am willing to look at 
better ways, different ways to measure border security, but we 
are looking for the Department to deliver on that.
    My hope today is that we will get some good answers about 
the status of the BCI, what measures it will take into account, 
and when it may be ready.
    In fact, several Members have asked questions about the 
status of the BCI at our last hearing, but again, we were not 
able to get answers really from those on the ground.
    This is very troubling because if we learned anything from 
the failure of SBInet, it was that the operators on the ground 
have to be more involved, must be more involved. The ground-
floor stakeholders must be more involved in the development of 
border security decisions, I think, in order to prevent any 
failure.
    Developing a complicated measure without the continual 
input of the men and women who are in the field, on the ground, 
who will be held to this standard, is not the best way to do 
business.
    So, if the BCI cannot be ready in 2 years, you know, we 
have to question if it is going to be a useful tool.
    In 2010, when the administration stopped reporting 
operational control information, the GAO warned that--they 
said, ``The absence of measures for border security may reduce 
oversight and the Department of Homeland Security 
accountability.''
    Congress and the American people must have a great deal of 
confidence that the Nation's border security agencies can deter 
or apprehend the overwhelming majority who cross the border 
illegally, and possess the ability as well to interdict drugs 
and whatever else may be coming across destined for American 
cities, that we don't want to be coming into our country.
    I think absence of such assurances, we will just have the 
same border security and immigration conversations next year 
and the following year and the following year thereafter.
    In my view, only a robust and agreed-upon way to measure 
outcomes can be the basis for that confidence. All of the DHS 
components for the nexus to the border have to be held 
accountable for success or failure, progress or not.
    We need to have a comprehensive strategy to secure the 
border and part of that strategy has to be a measurement system 
that makes sense.
    The Department should be held accountable for outcomes and 
certainly not keep telling us that the border is just more 
secure than ever because there are a lot of agents or 
technology or infrastructure along the border.
    Again, we have to be able to have a robust way of measuring 
it; something that can be explained, easily explained to the 
American people, that we are going in the right direction.
    So I certainly look forward to hearing from our 
distinguished panel this morning. I think we have a lot of 
expertise, fantastic expertise, before the subcommittee here 
today, and I we certainly look forward to hearing from them and 
at this time, I would yield to the Ranking Member for an 
opening statement.
    Ms. Jackson Lee. Good morning. I thank the gentlelady from 
Michigan for yielding, and I am very pleased with your 
leadership and us working together on a very important 
component of America's National security, and more importantly, 
Madam Chairwoman, asserting of the jurisdictional authority of 
Homeland Security and the Border and Maritime Security 
Subcommittee as it relates to the question of comprehensive 
immigration reform.
    We know well that as the debate moves rather swiftly, one 
of the issues that has been raised, that will be raised, either 
as a constructive component or either in some camps and 
categories as one that would distract from comprehensive 
immigration reform, it is whether or not we have a secure 
border.
    Your last hearing, our last hearing, where we asked how the 
border was being secured was an important outlay, if you will, 
of establishing what is actually happening.
    This hearing is important because it is really key to have 
how that is measured and the experts that you have here, as I 
welcome the witnesses, will be very constructive in our journey 
toward making sure that the border security effort is led by 
this full committee, Chairman, and Ranking Member, and this 
subcommittee that I believe is working with good intentions.
    Let me also acknowledge Congressmen Beto O'Rourke for 
championing the value of understanding the border and providing 
us with insight as relates to the expertise that is in his 
Congressional district. So besides the witnesses, we look 
forward to welcoming Judge Escobar for that expertise, and we 
thank the Congressman for his leadership on that issue.
    I am pleased the subcommittee is meeting to examine the 
Department of Homeland Security's efforts to use metrics to 
quantify border security.
    This discussion is particularly timely as Congress 
continues to work on legislation to reform our immigration 
system; border security will be an integral part of this 
discussion.
    Also in recent years, Congress has made unprecedented 
investments in border security personnel, technology, and 
resources to help DHS achieve that goal.
    Existing border metrics, while perhaps imperfect, indicate 
these investments have paid off. Apprehensions at border 
crosses totaled nearly 365,000 Nation-wide in fiscal year 2012, 
which is a 78 percent decrease from their peak in fiscal year 
2000.
    According to the Government Accountability Office, Border 
Patrol data shows that the effectiveness rate for eight of the 
nine Border Patrol sectors on the Southwest Border improved 
from fiscal years 2006 to 2011.
    They also found that the recidivism rate across has dropped 
to 36 percent in fiscal year 2011, down from 42 percent in 
fiscal year 2008.
    Certainly, our leadership on the board should be 
acknowledged for the work that our law enforcement has done 
along with homeland security. It is important to note these 
strides, and we thank you for it.
    It is important that for Congress to have an accurate 
assessment of remaining needs at our borders so we can identify 
areas for improvement. But I am encouraged that the trends--
about the trends that we are seeing. But I also want to say 
that we want to make sure these trends are being seen in the 
light that they should be and that is that you have the 
resources that you need or is it combined with the weak 
economy. Likely we will hear some of that today.
    While metrics are useful to measure our continued progress 
towards better-managed borders, I will reiterate my strong 
opposition to tying a comprehensive immigration reform to 
achieving some arbitrary standard of border security or some 
exaggerated standard; meaning that to make the argument that 
the border is not secure and won't be for many years to come 
and therefore we will not be able to complete comprehensive 
immigration reform.
    Indeed, we must move forward on parallel tracks reforming 
our broken immigration system while continuing to work together 
to achieve more secure borders.
    I would also caution that no single number or metrics can 
tell us whether our borders are secure. Geography and terrain 
of our borders are very diverse and the threats can differ from 
mile to mile based on highways, mountains, waterways, planes, 
and deserts.
    Madam Chairwoman, I do want to focus on the area that our 
colleague, Mr. Barber, is from, the Arizona desert area, and 
the concerns that he has expressed over the last couple of 
months in the time that he has been on this committee.
    Also metrics that are useful at the ports of entry will 
differ from those that are meaningful for between the ports of 
entry. Instead I believe DHS should use a range of data points 
combined with the stakeholder input to determine the state of 
the border and to make decisions about where additional 
resources may be necessary.
    Today I hope to hear from the operators, Chief Fisher, 
Assistant Commissioner McAleenan, about what they believe are 
the best metrics to assess the state of our borders.
    I am particularly interested in hearing from the CBP about 
what metrics are most valuable at the ports of entry, which is 
something we hear less about compared to challenges between the 
ports of entry.
    Further, I want to hear about how Mr. Borkowski uses 
information from the operators both in developing Border 
Condition Index and making border security technology 
acquisition decisions.
    Last, and arguably most importantly, I would like to hear 
from Judge Escobar on how border cities' and communities' input 
and needs could be included in these decisions.
    I thank the witnesses for joining us and look forward to a 
productive discussion.
    Finally, in conclusion, I am aware of the GAO report, which 
I will make more comments on as I go forward, and the metrics 
request that was made by Congressman Thompson and also Mr. 
Barber, and as the Ranking Member, I will look forward to 
analyzing that report and probing it more closely.
    Finally, Madam Chairwoman, I will look to posing some 
questions regarding the utilization of drones on the border and 
will look forward to some in-depth responses to that inquiry.
    This is an important hearing. I thank the witnesses and 
look forward to a productive discussion.
    I yield back to the gentlelady.
    Mrs. Miller. I thank the gentlelady, and I am prepared to 
accept a UC request if the gentlelady would like to offer one 
for Mr. Barber to sit in on our hearing. He said he had to run 
a quick errand and be right back.
    Ms. Jackson Lee. I do. I ask unanimous consent that Mr. 
Barber, as a Member of the full committee who is not a Member 
of the subcommittee, have permission to sit and to inquire 
through questioning on this committee and at this hearing.
    Mrs. Miller. Without objection.
    Ms. Jackson Lee. Thank you.
    Mrs. Miller. Other Members of the committee are reminded 
that opening statements might be submitted for the record and 
again, we are pleased to have four very, very distinguished 
witnesses before our panel here today.
    Michael Fisher was named chief of the United States Border 
Patrol in May 2012. Chief started his duty along the Southwest 
Border in 1987 in Douglas, Arizona. He has also served as the 
deputy chief patrol agent in the Detroit sector and as an 
assistant chief patrol agent in Tucson.
    Mr. Kevin McAleenan is the acting assistant commissioner at 
the U.S. Customs and Border Protection where he is responsible 
for overseeing CBP's antiterrorism, immigration, anti-
smuggling, trade compliance, and agricultural protection 
operations at the Nation's 331 ports of entry.
    Welcome both of them back.
    Mark Borkowski became the assistant commissioner at the 
Office of Technology, Innovation, and Acquisition at the U.S. 
Customs and Border Protection in July 2010.
    In this role, he is responsible for ensuring technology 
efforts are properly focused on mission and well-integrated 
across CBP. Prior to his appointment as the assistant 
commissioner, Mr. Borkowski was the executive director of the 
Secure Border Initiative, SBInet.
    Veronica Escobar was sworn in as El Paso County Judge on 
January 1, 2011. She works on issues related to health care, 
border policy, government consolidation, nature tourism, 
economic development. In her role as judge, she has been active 
in addressing issues important in border communities.
    Judge, in my area, we call you the county executive. That 
is our term in Michigan for what you do there.
    But we welcome all of you here and certainly the witnesses' 
full written statements will appear in the record.
    The Chairwoman now recognizes Chief Fisher for his 
testimony, and thanks again for appearing once again before 
this subcommittee, Chief.

     STATEMENT OF MICHAEL J. FISHER, CHIEF, BORDER PATROL, 
                DEPARTMENT OF HOMELAND SECURITY

    Chief Fisher. Chairwoman Miller, thank you for the 
opportunity.
    Ranking Member Jackson Lee, Congressman O'Rourke, 
Congressman Barletta, it is an honor to appear before you today 
to discuss the state of border security and the role that the 
Border Patrol agents and our mission support employees play to 
secure the border along with our strategic partners.
    I believe the committee has it right in terms of 
characterizing the border as a non-static state and framing the 
discussion around the state of border security.
    As we have discussed in the past, the border fluctuates 
with ever-present and dynamic threats along the continuum of 
potential vulnerabilities at a point in time.
    A condition that sets in motion risk mitigation as well as 
risk management responses primarily utilizing advanced 
information, operational and technological integration, and 
rapid response applied both at the strategic and the tactical 
level, all the while, recognizing the interdependency of 
intelligence, interdiction, and investigative capabilities.
    As stated in my previous remarks before this committee, I 
believe the state of border security is one in which we reduce 
the likelihood of attack to the Nation, one that provides 
safety and security to the citizens against the dangerous 
people seeking entry into the United States.
    Given this framework, the question becomes how should we 
measure this, not just how we can measure this; an important 
distinction in my opinion.
    In order to explain how we might show sustained progress 
over time in this mission space, I want to frame my brief 
remarks against our strategic plan. I will start with our 
classified environment, which is nothing less than the 
prevention of terrorists and terrorist weapons from entering 
the United States.
    I propose that I would prefer this committee on the 
potential corridor threats to the homeland and describe to you 
our integrated risk mitigation approach.
    In a classified setting, I would share how we are 
prioritizing threats and how we are refining situational 
awareness. If amendable, we would also include outcome measures 
for your insights towards our progress.
    In the unclassified environment, our focus for this hearing 
on managing risk and disrupting and degrading transnational 
criminal organizations. Outcome measures to assess our progress 
in this area would include the following.
    First, analysis of unique subjects, which helps us 
determine the number of people who have entered between the 
ports of entry and were subsequently apprehended.
    Distinguishing unique subjects and as a subset of 
apprehensions is important because it informs our understanding 
of patterns and rates of flow toward and into the United 
States. It also allows us to measure illegal activity at in 
between the ports of entry.
    The second outcome measure would be recidivism, which 
separates the number of people arrested at least two times from 
those who are arrested only once.
    Third, the average apprehension-per-recidivist rate 
provides us with the ability to analyze the flow and 
corresponding trends to distinguish between those that only 
enter two times from those with multiple entries in a given 
area over a period of time.
    This is important in assessing the threat. Moreover, as a 
measure, it informs our decisions to redeploy resources to 
high-risk areas as well as applying the appropriate 
consequences in order to reduce a further entry while 
disrupting criminal smuggling networks culminating and reduce 
flow rates.
    Fourth, as we have discussed in the past, affective rates 
in corridors characterized by significant illegal cross-border 
activity is equally important. We need to be aware of those who 
make illegal entry and track as best we can the outcome.
    Now we are learning and getting better at knowing how many 
people entered, and of that number, how many did we apprehend 
or turn back. This, in essence, is the effectiveness ratio; an 
informed assessment governed by our best efforts of integrating 
technology along with our agent judgment and experience not 
predicated on certitude.
    Fifth, and final, post-apprehension analysis. For instance, 
how many individuals do we arrest with criminal records and 
what does the trend line suggest? How many individuals have 
outstanding arrest warrants? Were they previously removed from 
the United States, and if so, under what circumstances? Were 
they arrested while smuggling illegal contraband?
    These are just a few examples of outcome measures that I 
would offer this committee. To balance our judgments regarding 
the state of border security, outside entities at that track 
similar measures may be used.
    For instance, the FBI's uniform crime reports, established 
to meet the needs for reliable, uniform crime statistics for 
the Nation, perhaps may be useful. Today, data from these 
reports and the analysis are provided by nearly 17,000 law 
enforcement agencies across United States.
    In conclusion, I want to thank the committee for leading 
this important effort to get the outcome measures right. I look 
forward to questions. Thank you.
    [The joint prepared statement of Chief Fisher, Mr. 
McAleenan, and Mr. Borkowski follows:]
  Joint Prepared Statement of Michael J. Fisher, Kevin McAleenan, and 
                             Mark Borkowski
                             March 20, 2013
    Chairwoman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee, it is an honor to appear before you today 
to discuss the role of U.S. Customs and Border Protection (CBP) in 
securing America's borders, a role that we share with our Federal, 
State, local, Tribal, and international partners.
    We are here today to discuss measurements of border security. Some 
have suggested that it can be measured in terms of linear miles of 
``operational control,'' a tactical term once used by the Border Patrol 
to allocate resources among sectors and stations along the border. We 
do not use this term as a measure of border security because the 
reality is that the condition of the border cannot be described by a 
single objective measure. It is not a measure of crime, because even 
the safest communities in America have some crime. It is not merely a 
measure of resources, because even the heaviest concentration of 
fencing, all-weather roads, 24-hour lighting, surveillance systems, and 
Border Patrol agents cannot seal the border completely.
    For border communities, important barometers for success are 
security and facilitation of travel and trade. A secure border means 
living free from fear in their towns and cities. It means an 
environment where businesses can conduct cross-border trade and 
flourish. For other American communities, it means enjoying the 
benefits of a well-managed border that facilitates the flow of 
legitimate trade and travel. Our efforts, combined with those of our 
international, Federal, State, local, and Tribal partners, have 
transformed the border and assist in continuing to keep our citizens 
safe, our country defendable from an attack, and promote economic 
prosperity.
    For CBP, securing our borders means first having the visibility to 
see what is happening on our borders, and second, having the capacity 
to respond to what we see. We get visibility through the use of border 
surveillance technology, personnel, and air and marine assets. Our 
ability to respond is also supported by a mix of resources including 
personnel, tactical infrastructure, and air and marine assets.
                 unprecedented resources at our borders
    Thanks to your support, the border is more secure than ever before. 
Since its inception, DHS has dedicated historic levels of personnel, 
technology, and infrastructure in support of our border security 
efforts. Resource levels, when considered with other factors, remain 
essential aspects in helping to assess the security of our borders.
Law Enforcement Personnel
    Currently, the Border Patrol is staffed at a higher level than at 
any time in its 88-year history. The number of Border Patrol agents 
(BPAs) has doubled, from approximately 10,000 in 2004 to more than 
21,000 agents today. Along the Southwest Border, DHS has increased the 
number of law enforcement on the ground from approximately 9,100 BPAs 
in 2001 to nearly 18,500 today. At our Northern Border, the force of 
500 agents that we sustained 10 years ago has grown to more than 2,200. 
Law enforcement capabilities at the ports of entry (POEs) have also 
been reinforced. To support our evolving, more complex mission since 
September 11, 2001, the number of CBP officers (CBPOs) ensuring the 
secure flow of people and goods into the Nation has increased from 
17,279 customs and immigration inspectors in 2003, to more than 21,000 
CBPOs and 2,400 agriculture specialists today. These front-line 
employees facilitated $2.3 trillion in trade in fiscal year 2012, and 
welcomed a record 98 million air travelers, a 12 percent increase since 
fiscal year 2009, further illustrating the critical role we play not 
only with border security, but with economic security and continued 
growth.
Infrastructure and Technology
    In addition to increasing our workforce, DHS has also made 
unprecedented investments in border security infrastructure and 
technology. Technology is the primary driver of all land, maritime, and 
air domain awareness--and this will become only more apparent as CBP 
faces future threats. Technology assets such as integrated fixed 
towers, mobile surveillance units, and thermal imaging systems act as 
force multipliers increasing agent awareness, efficiency, and 
capability to respond to potential threats. As we continue to deploy 
border surveillance technology, particularly along the Southwest 
Border, these investments allow CBP the flexibility to shift more BPAs 
from detection duties to interdiction and resolution of illegal 
activities on our borders.
    At our POEs, CBP has aggressively deployed Non-Intrusive Inspection 
(NII) and Radiation Portal Monitor (RPM) technology to identify 
contraband and weapons of mass effect. Prior to September 11, 2001, 
only 64 large-scale NII systems, and not a single RPM, were deployed to 
our country's borders. Today CBP has 310 NII systems and 1,460 RPMs 
deployed. The result of this investment in resources is the capacity 
for CBP to scan 99 percent of all containerized cargo at seaports and 
100 percent of passenger and cargo vehicles at land borders for 
radiological and nuclear materials upon arrival in the United States.
    The implementation of the Western Hemisphere Travel Initiative 
(WHTI) involved a substantial technology investment in the land border 
environment; this investment continues to provide both facilitation and 
security benefits. For example, today, more than 19 million individuals 
have obtained Radio Frequency Identification (RFID) technology-enabled 
secure travel documents. These documents are more secure as they can be 
verified electronically in real time back to the issuing authority, to 
establish identity and citizenship; they also reduce the average 
vehicle processing time by 20 percent.
    An outcome of the increased use of RFID-enabled secure travel 
documents is CBP's capability to increase the National law enforcement 
query rate, including the terrorist watch list, to more than 98 
percent. By comparison, in 2005, CBP performed law enforcement queries 
in the land border environment for only 5 percent of travelers. In 
terms of facilitation, CBP has also capitalized upon these notable 
improvements to establish active lane management at land border ports; 
this process is analogous to the management of toll booths on a 
highway. Through active lane management, CBP can adjust lane 
designations as traffic conditions warrant to better accommodate 
trusted travelers and travelers with RFID-enabled documents.
    CBP continues to optimize the initial investment in the land border 
by leveraging new technologies and process improvements across all 
environments. Since 2009, a variety of mobile, fixed, and tactical 
hybrid license plate readers (LPR) solutions have been deployed to 40 
major Southern Border outbound crossings and 19 Border Patrol 
checkpoints. These capabilities have greatly enhanced CBP's corporate 
ability to gather intelligence and target suspected violators by 
linking drivers, passengers, and vehicles across the core mission areas 
of in-bound, checkpoint, and out-bound. In the pedestrian environment, 
automated gates coupled with self-directed traveler kiosks now provide 
document information, query results, and biometric verification in 
advance of a pedestrian's arrival to CBPOs.
    CBP not only supports security efforts along the nearly 7,000 miles 
of land borders, but also supplements efforts to secure the Nation's 
95,000 miles of coastal shoreline. CBP has more than 268 aircraft, 
including 10 Unmanned Aircraft Systems (UAS), and 293 patrol and 
interdiction vessels that provide critical aerial and maritime 
surveillance and operational assistance to personnel on the ground. Our 
UAS capabilities now cover the Southwest Border all the way from 
California to Texas, providing critical aerial surveillance assistance 
to personnel on the ground. Our UAS flew more than 5,700 hours in 2012, 
the most in the program's history. Over the last 8 years, CBP 
transformed a border air wing composed largely of light observational 
aircraft into a modern air and maritime fleet capable of a broad range 
of detection, surveillance, and interdiction capabilities. This fleet 
is extending CBP's detection and interdiction capabilities, extending 
our border security zones, and offering greater opportunity to stop 
threats prior to reaching the Nation's shores. Further synthesizing the 
technology, CBP's Air and Marine Operations Center (AMOC) integrates 
the surveillance capabilities of its Federal and international partners 
to provide domain awareness for the approaches to American borders, at 
the borders, and within the interior of the United States.
    CBP is also looking to the future by working closely with the DHS 
Science & Technology Directorate to identify and develop technology to 
improve our surveillance and detection capabilities in our ports and 
along our maritime and land borders. This includes investments in 
tunnel detection tactical communication upgrades, and tunnel activity 
monitoring technology, low-flying aircraft detection and tracking 
systems, maritime data integration/data fusion capabilities at AMOC, 
cargo supply chain security, and border surveillance tools tailored to 
Southern and Northern Borders, including unattended ground sensors/
tripwires, upgrades for mobile Surveillance Systems, camera poles, and 
wide-area surveillance.
                         indicators of success
    This deployment of resources has, by every traditional measure, led 
to unprecedented success. In fiscal year 2012, Border Patrol 
apprehension activity remained at historic lows with apprehensions in 
California, Arizona, and New Mexico continuing a downward trend. In 
fiscal year 2012, the Border Patrol recorded 364,768 apprehensions 
Nation-wide. In fiscal year 2012 apprehensions were 78 percent below 
their peak in 2000, and down 50 percent from fiscal year 2008. An 
increase in apprehensions was noted in south Texas, specifically of 
individuals from Central American countries, including El Salvador, 
Guatemala, and Honduras. However, significant border-wide investments 
in additional enforcement resources and enhanced operational tactics 
and strategy have enabled CBP to address the increased activity. Today, 
there are more than 6,000 BPAs in South Texas, an increase of more than 
80 percent since 2004.
    At POEs in fiscal year 2012, CBPOs arrested nearly 7,900 people 
wanted for serious crimes, including murder, rape, assault, and 
robbery. CBPOs also stopped nearly 145,000 inadmissible aliens from 
entering the United States through POEs. Outcomes resulting from the 
efforts of the CBP National Targeting Center and Immigration Advisory 
Program, include the prevention of 4,199 high-risk travelers, who would 
have been found inadmissible from boarding flights destined for the 
United States, an increase of 32 percent compared to fiscal year 2011.
    We see increasing success in our seizures as well. From fiscal year 
2009 to 2012, CBP seized 71 percent more currency, 39 percent more 
drugs, and 189 percent more weapons along the Southwest Border as 
compared to fiscal year 2006 to 2008. Nation-wide, CBP officers and 
agents seized more than 4.2 million pounds of narcotics and more than 
$100 million in unreported currency through targeted enforcement 
operations. On the agricultural front, from fiscal year 2003 to fiscal 
year 2012, CBP interceptions of reportable plant pests in the cargo 
environment increased more than 48 percent to 48,559 in fiscal year 
2012. In addition to protecting our Nation's ecosystems and associated 
native plants and animals, these efforts are important to protecting 
our Nation's economy as scientists estimate that the economic impacts 
from invasive species exceed $1 billion annually in the United States.
    Another indicator of the success of our combined law enforcement 
efforts is reduced crime rates along the Southwest Border. According to 
2010 FBI crime reports, violent crimes in Southwest Border States have 
dropped by an average of 40 percent in the last 2 decades. More 
specifically, all crime in the 7 counties that comprise the South Texas 
area is down 10 percent from 2009 to 2011. Between 2000 and 2011, four 
cities along the Southwest Border--San Diego, McAllen, El Paso, and 
Tucson--experienced population growth, while also seeing significant 
decreases in violent crime.
    These border communities have also seen a dramatic boost to their 
economies in recent years. In fiscal year 2012, more than $176 billion 
in goods entered through the Laredo and El Paso, Texas POEs as compared 
to $160 billion in fiscal year 2011. Additionally, the import value of 
goods entering the United States through Texas land ports has increased 
by 55 percent between fiscal year 2009 and fiscal year 2012. In Laredo 
alone, imported goods increased in value by 68 percent. Arizona is also 
a significant source for the flow of trade. In both fiscal year 2011 
and fiscal year 2012, $20 billion entered through Arizona POEs.
    Communities along the Southwest Border are among the most desirable 
places to live in the Nation. Forbes ranked Tucson the No. 1 city in 
its April 2012 ``Best Cities to Buy a Home Right Now'' and in February, 
2012, the Tucson Association of Realtors reported that the total number 
of home sales was up 16 percent from the same month the previous year. 
Tucson also joins Las Cruces, New Mexico on Forbes' list of ``25 Best 
Places to Retire.'' These Southwest Border communities are also safe. 
In fact, Business Insider published a list of the top 25 most dangerous 
cities in America, and again, none of them is located along the 
Southwest Border. In fact, El Paso was named the second safest city in 
America in 2009 and the safest in 2010 and 2011. This is in dramatic 
contrast to Ciudad Juarez, just across the border, which is often 
considered one of the most dangerous cities in the Western Hemisphere.
    The successes of a secure border are also reflected in key National 
economic measures. In 2011, secure international travel resulted in 
overseas travelers spending $153 billion in the United States--an 
average of $4,300 each--resulting in a $43 billion travel and tourism 
trade surplus. In addition, a more secure global supply chain resulted 
in import values growing by 5 percent and reaching $2.3 trillion in 
fiscal year 2012 and is expected to exceed previous records in the air, 
land, and sea environments this year. CBP collects tens of billions of 
dollars in duties, providing a significant source of revenue for our 
Nation's treasury. These efforts compliment the strategies implemented 
by the President's National Export Initiative (NEI) which resulted in 
the resurgence of American manufacturers, who have added nearly 500,000 
jobs since January 2010, the strongest period of job growth since 1989. 
Additionally, other efforts to boost trade and exports are producing 
results. In 2011, United States exports have reached record levels, 
totaling more than $2.1 trillion, 33.5 percent above the level of 
exports in 2009. United States exports supported nearly 9.7 million 
American jobs in 2011, a 1.2 million increase in the jobs supported by 
exports since 2009. Further, over the first 2 years of the NEI, the 
Department of Commerce had recruited more than 25,000 foreign buyers to 
United States trade shows, resulting in about 1.7 billion in export 
sales. The administration's National Travel and Tourism Strategy calls 
for 100 million international visitors a year by the end of 2021, 
bringing more than $250 billion in estimated spending.
         protecting america from afar: secure borders expanded
    Although enforcement statistics and economic indicators point to 
increased security and an improved quality of life, many of these 
outcomes are a result of CBP's intelligence-based framework to direct 
its considerable resources toward a dynamic and evolving threat. CBP 
gathers and analyzes this intelligence and data to inform operational 
planning and effective execution.
    CBP's programs and initiatives reflect DHS's ever-increasing effort 
to extend its security efforts outward. This ensures that our POEs are 
not the last line of defense, but one of many.
Securing Travel
    On a typical day, CBP welcomes nearly a million travelers at our 
air, land, and sea POEs. The volume of international air travelers 
increased by 12 percent from 2009 to 2012 and is projected to increase 
4 to 5 percent each year for the next 5 years. CBP continues to address 
the security elements of its mission while meeting the challenge of 
increasing volumes of travel in air, land, and sea environments, by 
assessing the risk of passengers from the earliest, and furthest, 
possible point, and at each point in the travel continuum.
    As a result of advance travel information, CBP has the opportunity 
to assess passenger risk long before a traveler arrives at a POE. 
Before an individual travels to the United States, CBP has the 
opportunity to assess their risk via the Electronic System for Travel 
Authorization for those traveling under the Visa Waiver Program, or as 
part of the inter-agency collaborative effort to adjudicate and 
continuously vet visas, which are issued by the Department of State. 
CBP has additional opportunities to assess a traveler's risk when they 
purchase their ticket and/or make a reservation, and when they check-
in.
    Before an international flight departs for the United States from 
the foreign point of origin, commercial airlines transmit passenger and 
crew manifest information to CBP. CBP's National Targeting Center then 
reviews traveler information to identify travelers who would be 
determined inadmissible upon arrival. As part of its Pre-Departure and 
Immigration Advisory/Joint Security Programs, CBP coordinates with the 
carriers to prevent such travelers from boarding flights bound for the 
United States. From fiscal year 2010 through fiscal year 2012 CBP 
prevented 8,984 high-risk travelers from boarding as a result of these 
programs.
    Additionally, CBP's work on business innovations and enhanced 
partnerships with private industry helped lead to the expansion of 
Trusted Traveler Programs like Global Entry. More than 1.7 million 
people, including more than 414,000 new members this fiscal year, have 
enrolled in Trusted Traveler Programs, which allow expedited clearance 
for pre-approved, low-risk air travelers upon arrival in the United 
States. When comparing 2011 and 2012, CBP processed 500,000 more 
passengers using Global Entry and there were 689,000 more kiosk uses in 
2012.
    These efforts not only allow CBP to mitigate risk before a 
potential threat arrives at a POE, but they also make the travel 
process more efficient and economical by creating savings for the 
Federal Government and the private sector by preventing inadmissible 
travelers from traveling to the United States.
Securing Trade and the Supply Chain
    In fiscal year 2012, CBP processed 25.3 million cargo containers 
through the Nation's POEs, an increase of 4 percent from 2011, with a 
trade value of $2.3 trillion. The United States is the world's largest 
importer and exporter of goods and services. To address increasing 
travel volumes, CBP assesses the risk of cargo bound for the United 
States, whether by air, land, or sea, at the earliest point of transit.
    Receiving advanced shipment information allows CBP to assess the 
risk of cargo before it reaches a POE. Since 2009, the Importer 
Security Filing (ISF) and the Additional Carrier Requirements 
regulation have required importers to supply CBP with an 
electronically-filed ISF consisting of advance data elements 24 hours 
prior to lading for cargo shipments that will be arriving into the 
United States by vessel. These regulations increase CBP's ability to 
assess the scope and accuracy of information gathered on goods, 
conveyances, and entities involved in the shipment of cargo to the 
United States via vessel.
    Since 2010, CBP has implemented the Air Cargo Advance Screening 
(ACAS) pilot, which enables CBP and the Transportation Security 
Administration (TSA) to receive advance security filing cargo data and 
help identify cargo shipments inbound to the United States via the air 
environment that may be high-risk and require additional physical 
screening. Identifying high-risk shipments as early as possible in the 
air cargo supply chain provides CBP and TSA an opportunity to conduct a 
comprehensive review of cargo data while facilitating the movement of 
legitimate trade into the United States. Benefits to ACAS pilot 
participants include: Efficiencies by automating the identification of 
high-risk cargo for enhanced screening before it is consolidated and 
loaded on aircraft and reduction in paper processes related to cargo 
screening requirements which may increase carrier efficiency.
    CBP also has a presence at foreign ports to add another layer of 
security to cargo bound for the United States. The Container Security 
Initiative (CSI) launched in 2002 by the former U.S. Customs, places 
CBPOs on the ground at foreign ports to perform pre-screening of 
containers before they placed on a United States-bound vessel. The CSI 
program has matured since its inception in 2002, through increased 
partnership with host country counterparts and advances in targeting 
and technology, allowing CBP to decrease the number of CBPOs on the 
ground at CSI ports, while maintaining security outcomes. CBP still 
screens more than 80 percent of cargo destined for the United States 
prior to lading on a vessel.
Securing the Source and Transit Zones
    The effort to push out America's borders is also reflected by CBP's 
efforts to interdict narcotics and other contraband long before it 
reaches the United States. Since 1988, CBP Office of Air and Marine 
(OAM) and the former U.S. Customs Service, has provided Detection and 
Monitoring capabilities for the Source and Transit Zone mission. The 
CBP OAM P-3 Orion Long Range Tracker (LRT) and the Airborne Early 
Warning (AEW) aircraft have provided air and maritime surveillance, 
detecting suspect smugglers that use a variety of conveyances. 
Transnational Criminal Organizations (TCOs) smuggle various contraband 
towards the United States Borders and Arrival Zones. The CBP P-3 
aircraft have been instrumental in reducing the flow of contraband from 
reaching the Arrival Zones, by detecting the suspect aircraft and 
vessels while still thousands of miles away from America's border. In 
fiscal year 2012, P-3 crews were involved in the seizure of 117,103 
pounds of cocaine and 12,824 pounds of marijuana. In the first quarter 
of 2013, P-3 crews have been involved in the seizure of 33,690 pounds 
of cocaine and 88 pounds of marijuana. Providing direction to 
interdiction assets and personnel to intercept suspects long before 
reaching the United States, the CBP P-3 aircraft and crew provide an 
added layer of security, by stopping criminal activity before reaching 
our shores.
                   evaluating the state of the border
    DHS uses a number of indicators and outcomes to evaluate security 
efforts at our borders, including factors described above such as 
resource deployment, crime rates in border communities, and 
apprehensions. However, while enforcement statistics and economic 
indicators point to increased security and an improved quality of life, 
no single metric can conclusively define the state of border security. 
Any individual metric can only capture one element of border security 
and none captures the true state of security along our borders. Rather 
than focus on any particular metric, our focus is on the enhancement of 
our capabilities, ensuring that we have tools that will lead to a high 
probability of interdiction in high-activity areas along our Southwest 
Border.
                               conclusion
    Over the past 4 years, this administration has undertaken an 
unprecedented effort to secure our border and transform our Nation's 
immigration enforcement systems into one that focuses on public safety, 
National security, and on the integrity of the immigration system. DHS 
has deployed historic levels of personnel, technology, and 
infrastructure to the Southwest Border to reduce the flow of illicit 
drugs, cash, and weapons and to expedite legal trade and travel through 
trusted traveler and trader initiatives.
    CBP has made significant progress in securing the border with the 
support of Congress through a multi-layered approach using a variety of 
tools at our disposal. CBP will continue to work with DHS and our 
Federal, State, local, Tribal, and international partners, to 
strengthen border security and infrastructure. We must remain vigilant 
and focus on building our approach to position CBP's greatest 
capabilities in place to combat the greatest risks that exist today, to 
be prepared for emerging threats, and to continue to build a 
sophisticated approach tailored to meet the challenges of securing a 
21st Century border. At the same time, the Secretary has made it clear 
that Congress can help by passing a common-sense immigration reform 
bill that will allow CBP to focus its resources on the most serious 
criminal actors threatening our borders.
    Chairwoman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee, thank you for this opportunity to testify 
about the work of CBP and our efforts in securing our borders. We look 
forward to answering your questions.

    Mrs. Miller. Thanks very much, Chief.
    The Chairwoman now recognizes Mr. McAleenan for his 
testimony, and again, welcome back to the committee.

 STATEMENT OF KEVIN MC ALEENAN, ACTING ASSISTANT COMMISSIONER, 
OFFICE OF CUSTOMS AND FIELD OPERATIONS, U.S. CUSTOMS AND BORDER 
          PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. McAleenan. Good to be back. Good morning, Madam 
Chairwoman, Ranking Member Jackson Lee, distinguished Members 
of the subcommittee. I appreciate this committee's continued 
leadership on these issues and look forward to our discussion 
this morning.
    CBP remains committed to increasing the effectiveness of 
our operations and programs and we welcome this discussion.
    We define a secure border at our Nation's port of entry as 
a well-managed border where mission risks are effectively 
identified and addressed while legitimate trade and travel are 
expedited.
    Every day we carry out our mission to protect the people 
and the economy of the United States by preventing dangerous 
people and goods from entering the country while expediting 
legitimate trade and travel that is a lifeblood of our economy.
    Traffic at our 330 ports of entry is diverse and varied. It 
differs by environment--air, land, and sea; type of traffic, 
whether traveler, conveyance, or cargo; and mode of 
transportation--commercial or general aviation, personally-
owned vehicle, truck, rail, and containerized package or bulk 
cargo. All of these present different challenges and different 
threat profiles and different processing time expectations.
    As a result, as you noted, Madam Chairwoman, we don't have 
a single number or target level by which CBP's Office of Field 
Operations can measure the full scope of our security or 
facilitation efforts, but there are a number of important 
indicators that we do use to address and refine our operations.
    These metrics are both qualitative and quantitative. They 
include effectiveness and efficiency, and are assessed at the 
National, regional, port, and programmatic levels.
    We use these key indicators to assess our performance and 
evaluate trends and developments over time. I think we can come 
to a mission and environment-specific understanding of what 
those measures are and the best way to capture and discuss 
them.
    We start with the volume of travelers and goods. That is 
the backdrop against which we measure our performance. Last 
year, CBP welcomed 350 million passengers and travelers and 
processed over 25 million cargo containers and over 100 million 
air cargo shipments with a trade value of $2.3 trillion.
    We continue to see increases in all of our environments at 
both traveler and trade and anticipate continued growth.
    It is important to note that the vast majority of this 
traffic, an estimated 99.5 percent of land passengers and 90.6 
percent of air travelers, is in compliance with all laws and 
regulations.
    Our goal is to identify and interdict those few travelers 
and shipments that may present a risk, while facilitating the 
vast majority. This presents a complex, multifaceted risk-
sorting problem that we work very hard to address every day. We 
are working to find and stop those proverbial needles in the 
haystacks while the haystacks are actually in motion.
    Using a number of increasingly-refined tools and 
techniques, we are improving our ability to do this and 
focusing our finite resources on those people and goods that 
present the highest potential risk.
    In addition to refining our risk-based and layered approach 
to security, we have worked to extend our borders outward to 
interject threats before they reach the United States at the 
earliest possible point in the supply chain in the travel 
cycle.
    DHS, in cooperation with our interagency and foreign 
partners, now screens people and goods earlier in the process 
before boarding passengers or loading cargo onto planes or 
vessels destined for the United States.
    Since 2009, CBP has expanded its pre-departure screening 
efforts and now checks all air travelers against Government 
databases on all flights arriving to or departing from the 
United States prior to boarding.
    In addition, all in-bound maritime cargo manifests are 
screened before they are laden vessels with almost 85 percent 
of high-risk shipments being examined or addressed before 
arrival at a U.S. seaport.
    We are tracking improvements in our capabilities, resulting 
in enforcement benefits across each of our other critical 
missions, as well, from our enhanced capacity to identifying 
and interdicting inadmissible persons to our ability to detect 
and interdict smaller and better-concealed contraband to our 
trade enforcement and agriculture protection efforts.
    I would welcome the opportunity to discuss any of these 
mission areas in greater detail.
    In addition to improving our ability to identify and 
mitigate potentially high-risk trade and travel, CBP remains 
focused on identifying ways to facilitate the growing volume of 
people and goods entering the United States.
    We have seen marked facilitation improvements to the 
development of a series of transformative initiatives that 
increases speed of our processing including the expansion of 
trusted traveler and trader programs, the elimination of paper 
forms, and the increased use of technology in our process.
    We will continue to aggressively pursue these strategies 
which will both increase security and streamline the process 
for people and goods crossing the border.
    The state of border security continues to improve at our 
ports of entry. We have made tremendous progress and are well-
postured against terrorist threats having pushed our security 
measures beyond our immediate borders.
    We have focused our agricultural protection efforts against 
the highest-risk, pest, and diseases and are maintaining 
historic levels of interceptions of products and pests, and we 
are pursuing a robust strategy to optimize our current business 
processes.
    In short, we have maintained and increased our mission 
effectiveness while facing increasing demands from growing 
passenger and trade volume and we continue to seek ways to 
improve.
    Chairman Miller, Ranking Member Jackson Lee, and Members of 
the subcommittee, thank you for this opportunity to testify. I 
look forward to taking your questions.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes Mr. Borkowski for his 
testimony and welcomes him back to the committee as well.

STATEMENT OF MARK BORKOWSKI, ASSISTANT COMMISSIONER, OFFICE OF 
TECHNOLOGY INNOVATION AND ACQUISITION, U.S. CUSTOMS AND BORDER 
          PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Borkowski. Thank you, Chairwoman Miller, Ranking Member 
Jackson Lee, and distinguished Members of the committee. It is 
a pleasure to be here and talk about this what is frankly an 
extremely challenging topic.
    I think it is important because we have talked a little bit 
about how the Border Patrol measures, what the Border Patrol 
does, and that is important, and we need to continue to do 
that.
    Assistant Commissioner McAleenan just talked a great deal 
about how he knows whether he is doing well or poorly and it is 
important that we do that, but in some of the discussions and 
even here, we have asked--but holistically, how are we doing?
    So to start, I think we need to kind of reframe that. As I 
deal with this question, and I have done a lot of research on 
it as you might imagine, I have to constantly remind myself 
that this is a bigger problem than even just CBP.
    This is a holistic question of what the state of the border 
is and CBP is a part of that, is a part of the contribution, 
but is not the entire contribution.
    I know we have all heard the Secretary for example 
emphasize the importance of internal enforcement. So you are 
the panel here from Customs and Border Protection, which is 
very much focused on the at-the-border contribution to border 
security. You just heard about the Border Patrol domain and you 
have heard about the Office of Field Operations domain, but 
what about--how do you put all that together?
    I think, Chairwoman Miller, it goes to something you said 
in your statement about how do we simplify this.
    Because frankly we are very comfortable with the kinds of 
measures that our experts are proposing, but it is very 
difficult to use those in this kind of a forum to discuss the 
state of border security.
    That is actually what has gotten us to some of the 
opportunities, the options, the things that we have been 
investigating as perhaps ways of depicting that story in a 
simpler form, and that is what the BCI is intended to do.
    So let me briefly describe the BCI. You probably remember 
that we have gone through several iterations of ways of 
attempting to explain the state of the border and one of the 
more recent ones was apprehensions; the decline in 
apprehensions.
    We often said and continue to say that the decline in 
apprehensions is a good indicator that the border is more 
secure. Now when we said that, frankly we said that because as 
you might have gathered from some of the things that the chief 
said, we look at a lot more than that.
    We look at a great deal of data that helps us validate what 
those apprehensions mean, but for the simplicity of 
presentation to the public, we used the apprehensions as a 
surrogate for all of that information. The Secretary asked us 
about that at one point because she got criticized, frankly, 
for using apprehensions; what about the things that you don't 
know?
    Well actually, there is a lot more we know but it was that 
dilemma of being simple in explanation that was the problem. So 
we went back to the Secretary and described the kinds of things 
that you just heard from AC McAleenan and from Chief Fisher, 
and the Secretary said that is great and I get that, but is 
there any way that you can consolidate that into something a 
little simpler? Something that stands for all of that without 
necessarily being all of that; and that is what the concept of 
the Border Condition Index is.
    So we have been going and researching datum looking at what 
is available, looking--is there some set of--some subset of 
this that is an indicator, that is indicative of what all of 
the data says?
    Although I think there is a perception that we have not 
worked with the operators, in fact, we have. We started with 
the operators. We have reiterated with the operators, but 
partly that reconciliation between what Chief Fisher is doing 
in his kind of tactical operational level and at the big 
picture message, that takes time. That is one of the 
challenges. We had to do that very carefully and very 
deliberately.
    So that is what the BCI is intended to do. I would be happy 
to talk about where we are in that. We have looked at a number 
of options, but I would also caution you that it is an 
indicator. It is not a perfect number, but it has attempted to 
depict what all of this other stuff when you look at it 
holistically tells us, and so the question is: What should be 
in there? What does that mean it to be holistic? That is what 
we are dealing with the BCI.
    The only other thing I think I would like to highlight 
briefly because I think, Chairwoman Miller, you raised it, and 
I just want to make this point. We agree that it is not 
appropriate to measure inputs standing alone as measures of 
border security. What is an input?
    Number of Border Patrol agents, amount of technology, miles 
of fence, those are resources we apply to a problem, and we 
agree it is not correct to say we have just spent a lot of 
money and therefore, we are better. We need to link that to 
outcomes, but one of the challenges is that when you design 
plans, you design them with an expectation of an outcome.
    So what I want to assure you of is that when we talk about 
plans for technology or for personnel, we have done that, 
advised by, for example, in the case of the Border Patrol, the 
Border Patrol's expectation of what that will produce in terms 
of an outcome.
    So when we measure our progress against for example amount 
of technology procured, it is important to measure that, but I 
want to assure you that we measure that in the context of the 
reason we are doing it is because it is designed to produce an 
outcome that the Border Patrol has requested.
    So that is kind of our overall thinking. That is what the 
BCI is designed to do and I wouldn't throw away measures of 
inputs, but I would always remember that those measures--those 
inputs were designed to produce an outcome.
    I look forward to the committee's questions.
    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes Judge Escobar for her 
testimony.

 STATEMENT OF VERONICA ESCOBAR, EL PASO COUNTY JUDGE, EL PASO, 
                             TEXAS

    Judge Escobar. Thank you very much, Chairwoman Miller and 
Ranking Member Jackson Lee. I appreciate the opportunity to be 
here with all of you this morning.
    I am Veronica Escobar, the county judge for El Paso, Texas. 
As one of your colleagues and my own Member of Congress has 
undoubtedly informed you many times, El Paso is the safest city 
of its size in the Nation.
    In fact, for the last 3 years in a row, that has been our 
ranking and for at least a decade preceding that, we have been 
among the top three safest cities of the Nation, and that 
predated the walls, the drones, and the quadrupling of Border 
Patrol agents.
    We are dealing today with this question of how to measure 
security because border security was mandated to be achieved 
before immigration reform would be enacted.
    We were told by our policymakers that our pursuit would be 
enforcement first, but it quickly became enforcement only to 
the detriment of any thoughtful policy considerations or 
reform.
    Those of us who have been engaged in this issue have long 
said that immigration reform should come first, that 
approaching enforcement first or only is a backward way to deal 
with the flow of people and goods across our borders.
    In 2007, when the Federal Government erected the wall that 
scars my community, I took a tour of it with Border Patrol 
agents who told me that 85 percent of their apprehensions at 
the border were of non-criminal offenders.
    That meant only 15 percent or fewer of the apprehensions 
made were for criminal aliens. It is important to note that the 
definition of criminal aliens is broad and includes people who 
do not necessarily represent a security threat to the United 
States.
    The more important fact is that the 85 percent and even 
some of the 15 percent of undocumented crossers are risking 
jail time and even their lives to be in this country to find 
work, perhaps establish a safer and better life, or reunite 
with their families.
    In 2008, Border Patrol Chief David Aguilar wrote that, ``90 
percent of the illegal aliens we arrest are drawn to this 
country for socioeconomic reasons,'' but our Nation has spent 
enormous resources trying to secure our borders from these 
migrants.
    Had we dealt with those crossers at the policy level, 
creating for example legal guest-worker programs for migrant 
farm workers or more humane family reunification programs, 
which are especially relevant for border communities like mine, 
then fewer resources would have been needed for security, which 
costs taxpayers $18 billion in fiscal year 2012 alone, and more 
importantly, those resources could have been aimed at targeting 
true threats, the threats described by those seated at this 
table.
    With this in mind, how do we as a Nation put together 
metrics that will define success and security? How do we apply 
that to a border where the geography, environments, and 
populations are so different as the Ranking Member pointed out 
in her opening statements?
    Furthermore, if we are to look at what security is, we 
should also identify what we know it should not be. It should 
not be long, idling wait times at our ports of entry, and it 
should not be unnecessary, expensive, ugly fencing that can 
easily be defeated with tunnels and ladders.
    Since we are talking about metrics today, one of the 
metrics El Paso and other communities have asked about for 
years now has been staffing statistics at each of our ports of 
entry. It is very difficult to fully understand how to address 
the lack of personnel at the ports when the statistics about 
the specific number of CBP personnel at each port isn't 
available to local leaders or even the Members of Congress who 
represent us in the District of Columbia.
    This secrecy will be problematic if and when communities 
like El Paso are allowed to begin reimbursable fee, public/
private partnerships such as those described in S. 178 and its 
companion bill, H.R. 1108, the Cross-Border Trade Enhancement 
Act of 2013.
    I know there are co-sponsors on this committee and even the 
Chairman of the committee. I define security by our ability to 
protect our vital interests; our port--excuse me--our people, 
our economy, and our infrastructure among them.
    Security for example should be measured by how quickly we 
can move people and goods safely across our ports. Is 
international trade that boosts our economy a vital interest of 
the United States and therefore an important measure of our 
security?
    Absolutely. In another vein, security also should be 
measured by the transparency that helps us address shortages in 
personnel and inadequacies in technology and infrastructure.
    Finally, it should be measured by those of us who live in 
the communities that bear the brunt of the measures enacted by 
Congress and should be based on close collaboration with local 
leaders and law enforcement.
    I submit to you that once we deal with immigration reform 
first, finally, and thoughtfully, a more meaningful and less 
complex debate over security and outcomes can easily be 
resolved.
    Thank you very much for this opportunity. I look forward to 
the questions.
    [The prepared statement of Judge Escobar follows:]
                 Prepared Statement of Veronica Escobar
                             March 20, 2013
    Good morning, my name is Veronica Escobar and I am the county judge 
of El Paso, Texas. I thank you for the opportunity to be here with you 
today to discuss ``Measuring Outcomes to Understand the State of Border 
Security.''
    As one of your colleagues (and my Congressman from Texas's 16th 
Congressional District), Representative Beto O'Rourke has said many 
times, El Paso, a border community, is among the safest in the Nation. 
In fact, the last 3 years in a row, we've been ranked the safest city 
of our size, and have consistently ranked among the top three safest 
cities for over a decade. This achievement, just like the safety 
enjoyed by other communities along the U.S.-Mexico border, predated the 
walls, drones, and quadrupling of Border Patrol personnel. So I 
appreciate that I can share with you a local perspective about security 
on the border.
    We're dealing with this question of how to measure security because 
border security was mandated to be achieved before immigration reform 
would be enacted. We were told by our policy-makers that our pursuit 
would be ``enforcement first,'' but it quickly became ``enforcement 
only,'' to the detriment of any thoughtful policy considerations or 
reform.
    Those of us who have been engaged in this issue have long said that 
immigration reform should come first--that approaching enforcement 
first (or only) is a backward way to deal with the flow of people and 
goods across our borders.
    In 2007 when the Federal Government erected the wall that scars my 
community, I took a tour of it with Border Patrol agents, who told me 
that 85% of apprehensions at the border were of non-criminal offenders. 
That meant only 15% or fewer of the apprehensions made were for 
``criminal aliens.'' It's important to note that the definition of 
``criminal aliens,'' is broad and includes people who do not 
necessarily represent a security threat to the United States. The more 
important fact is that 85% (and even some of the 15%) of undocumented 
crossers are risking jail time and even their lives to be in this 
country to find work, perhaps establish a safer and better life, or 
reunite with their families. In 2008, Border Patrol Chief David Aguilar 
wrote that ``90 percent of the illegal aliens we arrest are drawn to 
this country for socio-economic reasons.''\1\
---------------------------------------------------------------------------
    \1\ Aguilar, David V. Frontline U.S. Customs and Border Protection 
Magazine. ``Protecting the Southern Border,'' Spring 2008, p. 10.
---------------------------------------------------------------------------
    But our Nation has spent enormous resources trying to ``secure'' 
our borders from these migrants. Had we dealt with those crossers at 
the policy level--creating, for example, legal guest worker programs 
for migrant farm workers or more humane family reunification programs 
(especially relevant for border communities like mine), then fewer 
resources would have been needed for security, which cost taxpayers $18 
billion in fiscal year 2012 alone. In El Paso, for example, if it were 
easier for Mexicans to go back and forth, fewer would try to live here 
permanently--with stricter controls, crossers have an incentive to try 
to live here rather than risk re-crossing the border.
    With this in mind, how do we as a Nation put together metrics that 
will define success and security? How do we apply that to a border 
where the geography, environments, and populations are so different?
    While our Southern Border cities have commonalities among them, 
clearly we are not all alike. El Paso is an urban community, a vibrant 
county of over 800,000 people with five international ports of entry in 
our sector that move people and goods back and forth. We are across 
from the massive, sprawling metropolis of Ciudad Juarez. Obviously, we 
are unlike rural border towns that are situated across from rural 
Mexican communities. But, we all share a common theme: The vast 
majority of the people coming across our border want to be a part of 
us, not harm us.
    And before evaluating metrics for success, how do we even define 
``security''? That is a definition that depends on whom you ask. Some 
think that security means not allowing a single human being to enter 
our country without permission--an impossible standard. Absolute 
security can never be achieved. And even if it could, absolute security 
is incompatible with a free society. Security may mean something 
different to local law enforcement, or to those in the intelligence 
community, or to those who are part of a neighborhood watch program. 
History has shown us that the Southern Border does not present a 
security threat.
    If what this country is trying to achieve is having more control 
over who comes back and forth across our borders and knowing who those 
people are and what they're bringing in, I will repeat that we've 
approached the situation in a completely backward way.
    It's not too late to revisit that approach even though the question 
before everyone now is how to measure border security. The key is to 
reform immigration first and then deal with those who are truly a 
threat to U.S. National security. We need to stop using precious 
resources on those whose purpose in coming to the United States 
presents no threat and who can be dealt with through policy changes.
    Furthermore, if we are to look at what security is, we should also 
identify what we know it should not be: It should not be long idling 
wait times at our ports of entry and it should not be unnecessary, 
expensive, ugly fencing that can be easily defeated with tunnels and 
ladders.
    Those border wait times are expected to worsen if we do nothing. I 
recently toured some of the maquiladoras in Ciudad Juarez, which 
produce the cell phones we use as well as a number of different 
products that this Nation's economy and people depend on. Each 
maquiladora is expanding and their exports are growing. That means more 
commerce moving across El Paso's ports (last year it was worth $80 
billion). These job- and economy-growing companies all shared a common 
concern and complaint: Long border wait times.
    Since we're talking about metrics today, one of the metrics El Paso 
and other communities have asked about for years now has been staffing 
statistics at each of our ports. It's very difficult to fully 
understand how to address the lack of personnel at the ports when the 
statistics about the specific number of CBP personnel at each port 
isn't available to local leaders or even the Members of Congress who 
represent us in the District of Columbia. I understand the need to 
secure certain data from the human- and drug-smuggling organizations 
that CBP and ICE contend with on a daily basis. However, keeping these 
statistics secret from policy makers such as Members of Congress is 
excessive and counter-productive.
    This secrecy will be problematic if and when communities like El 
Paso are allowed to begin reimbursable fee public-private partnerships 
such as those described in S. 178 and its companion bill in the house, 
H.R. 1108, the Cross-Border Trade Enhancement Act of 2013. The Chairman 
of this committee is even a co-sponsor of this legislation. If we as 
local partners are encouraged to supplement personnel at our ports but 
we aren't allowed to know what current staffing levels are, how will we 
know what the supplement should be? These are the types of metrics we 
should be focused on.
    I define security by our ability to protect our vital interests: 
Our people, our economy, and our infrastructure among them. Security, 
for example, should be measured by how quickly we can move people 
safely across our ports. Is international trade that boosts our 
economy, a vital interest of the United States and, therefore an 
important measure of our security? Absolutely. In another vein, 
security also should be measured by the transparency that helps us 
address shortages in personnel and inadequacies in technology and 
infrastructure. And finally, it should be measured by those of us who 
live in the communities that bear the brunt of the measures enacted by 
Congress, and should be based on close collaboration with local leaders 
and law enforcement.
    I submit to you that once we deal with immigration reform--first, 
finally, and thoughtfully--a more meaningful and less complex debate 
over security can easily be resolved.

    Mrs. Miller. Thank you very much, Judge.
    Again, I appreciate all the panel being here.
    This hearing really in my mind has been called at a very 
critical juncture in the National debate about comprehensive 
immigration reform or however we want to categorize it.
    I think we have an opportunity as a country to actually get 
something done on this very important issue this year perhaps.
    You look at the--in the Senate with the ``Gang of Eight'' 
whatever they are calling themselves. I had an opportunity to 
chat a bit with one of the members of that committee, that 
group--it is not a committee, but a working group, earlier this 
week and felt very optimistic that they were moving along and 
we would be seeing some sort of a work product shortly.
    I think that has been pretty widely reported as well and 
here in the House, we have a similar group, bipartisan, just as 
it is in the Senate, working on these critical issues.
    But, a component of that and something that is going to be 
asked by every member of the House or the Senate that may be 
voting on any bill eventually, that comes to the Senate or the 
House, will be the same question that the American people are 
going to ask; and that is whether or not we have a high degree 
of comfort or confidence in whether or not our borders are 
secured, so that we, as I say, do not continue to have this 
same conversation over and over without some way to measure 
that. One of you said--the Secretary asked you to come up with 
that this formula because it wasn't--to put it in simple terms 
that the American people could understand.
    I think we are all asking the same question that Secretary 
Napolitano asked of all of her staff; how we can put it in 
terms that we can understand it and feel good about it, whether 
it is--whether the results are good or bad, at least that we 
understand what is happening.
    The first thing we don't want to do is mislead ourselves 
about what is going on at the border, whether it is secure or 
not secure. You may have one, you know, one person that has a 
very different opinion of--than another of what border security 
looks like and whether or not the border is secure.
    I would also say this. We--you know, one of the things that 
I think we certainly learned from the 9/11 Commission 
recommendations that I look at all the time and I have it in my 
prism as I ask questions or certainly my service on this 
committee is, we had to go from the need-to-know information to 
the need-to-share information; and that had to cross all 
ground-floor stakeholders that we share information with--
various agencies certainly within the Department of Homeland 
Security, that we share with our local law enforcement, you 
know, force multipliers throughout the entire chain, et cetera.
    This BCI asking for this 2 years ago and we still don't 
have it, and, you know, as the Secretary has said, operational 
control is an antiquated term, not to be used.
    So we are sort of sitting here as a Congress asking the 
Department as you are developing this BCI, are you know, let's 
not make the same mistakes for instance that were made, many 
people have said by SBInet and when we developed that--by not 
really getting good input and asking the people in the field 
whether or not--you know, what they thought to help them 
develop this.
    So I know, Mr. Borkowski, you said that you have had good 
conversations. I am not sure that--I guess I am not sure that 
that is exactly so, that you have had as much conversation as 
you have need to or input or suggestions from the people in the 
field about that. So I would just say that I guess I would like 
to flush that out a bit. Do you think you are asking for 
instance, the Chief and Mr. McAleenan and others, the kinds of 
questions that you need to, and at what point will you be able 
to give us something that we can use as a measure?
    Mr. Borkowski. First of all, I don't believe that we 
intend, at least at this point, that the BCI would be a tool 
for the measurement that you are suggesting. So let's--I need 
to start there.
    The BCI is part of a set of information that advises us on 
where we are and most importantly, what the trends are and that 
is what it is designed for.
    So it is not our intent, at least not immediately, that it 
would be the measure you are talking about. We do think it 
would be a very useful tool to show why we believe that the 
trend is one way or another and to show the components of that 
trend. So that is the first thing.
    In terms of interaction with the operators, we have 
actually had extensive interaction. Now I would agree with your 
statement that we need more and that is part of the issue. That 
has to go back and forth until it converges, but in the initial 
considerations of what might be included, we have asked the 
operators what they had.
    So some of the things that AC McAleenan described to you, 
some of the things that Chief Fisher described to you, those 
are candidate elements underneath of the build-up of the BCI.
    After we had some notional constructs--oh, by the way, in 
addition to that, we went out to the communities mostly in 
Arizona, but to NGOs, law enforcement, ranchers, academics; 
asked them what was important to them.
    So there was a lot of homework done in what should we 
include, not just our own operators, but other stakeholders. 
After we had some notional constructs, we fed those back to 
this operational community and by the way, to a panel of 
academic experts who commented on it and made some suggestions 
for changes.
    We, as recently as last week, got together with the staffs 
in both Chief Fisher and AC McAleenan's office to go through 
this again because again, what they are concerned about is the 
kinds of things that Chief Fisher described to you are the 
kinds of things he is going to continue to use.
    What he needs to be comfortable with is whether or not 
those things in total reconcile with the kinds of things that 
are coming out of the BCI, and we continue to do that. So----
    Mrs. Miller. So you met with them last week, you 
mentioned--of course you knew that this hearing had been 
noticed by then--I am just asking. So you have been meeting 
with them on a very regular basis?
    Mr. Borkowski. Absolutely.
    Mrs. Miller. To get all of their input? Et cetera, et 
cetera?
    Mr. Borkowski. Absolutely. Now, I would----
    Mrs. Miller. You know, I would----
    Mr. Borkowski. Sorry.
    Mrs. Miller. Excuse me--I am--I don't have that much time. 
But the--if we are not to use operational control, and again, I 
even said in my opening statement, I am open to the suggestion 
that that is an antiquated term and perhaps this is not the 
best measurement, and I appreciate--believe me I do--how 
complicated it is; a layered approach at the border, how very 
complicated it is to get some sort of an accurate measurement, 
but we have been told--at least I have been under the--
operating under the assumption for the last several years that 
this BCI would be taking the place of operational control, that 
it would be something that whether the GAO, et cetera anybody, 
any other agency vetting this would be using as a measurement.
    Now you are saying that it has never really been intended 
to be used as a measurement. So I am just trying to let this 
all digest here.
    If that is so, I guess I would ask the chief if I could, 
you mentioned certainly, you know, as far as the threats you 
would want to talk about that in a classified setting. I 
appreciate that, of course, but some of the outcomes certainly 
can be in an unclassified setting like a hearing like this so 
that we can explain to the American people what is going on.
    You mentioned--I was taking some notes while you were 
talking, Chief--the effectiveness ratio is essentially the 
measurement that you are currently utilizing. Do you feel 
comfortable that that is a--I guess I am just trying to 
understand this--a component of the BCI or what is your thought 
about the BCI? Do you agree that it shouldn't be used as a 
measurement?
    Chief Fisher. Initially, with Mark and as we were 
discussing this, as we were developing our strategy and looking 
at outcomes 3 years ago, we started understanding how valuable 
effectiveness was as a replacement to stand-alone apprehensions 
only as we have been maturing process; which gets us to some of 
the things--we had offered that up to Mark on some of the 
different measures that we were collecting under the--our new 
strategic plan.
    So in that regard, we have shared with Mark everything that 
we collect, whether they are being incorporated or not or the 
extent to which one or the other is, I don't know, but we are 
still moving down in terms of how we within, as Mark framed, 
our domain, right.
    So we understand what is happening because it is not just 
measures, it helps us at the tactical level deploy and redeploy 
resources to those areas where we are now differentiating 
between high- and low-risk areas. So it is very valuable to us 
independent on whether it gets absorbed into a broader Border 
Condition Index.
    Mrs. Miller. I appreciate that.
    I didn't want to cut you off, Mr. Borkowski, if you have 
anything else to add to that.
    The reason I am focusing on this obviously--look, we all 
understand we are dealing with a constrained fiscal environment 
here. At the same time we are asking you, can you tell us 
exactly how you are doing?
    It is a very difficult question to be asked and to answer 
it correctly. I am not trying to gotcha, kind-of thing. But I 
am telling you, at this moment in time, where we have an 
opportunity to do comprehensive immigration reform, if we just 
say well, we can't really--you know, we can't use operational 
control and the BCI is not really a good thing and it is not 
the correct--it is a component of the important scenario there 
and you really don't have a matrix that we can utilize that 
could be a component of our failure to pass something that I 
think is very important for our country.
    So there is a lot of interest and just trying to get a 
handle on, you know, we look at some of the lessons learned, 
certainly since 9/11 with various kinds of technology that we 
have deployed along the border that has not worked particularly 
well but has cost a ton of money, and the American people are 
going to be making sure their representatives ask these 
questions.
    Any other comment there?
    Mr. Borkowski. I would just say that obviously we have had 
the discussion with the chief, and one concept for at least 
part of this BCI is to take the effectiveness ratio and somehow 
bound it by how confident should we be in that number.
    That is the challenge, right? How do you take what is a 
very good number, a well-calculated number, and then add to 
that some level of confidence you have in it because the 
effectiveness ratio also is based on what we know. How do I 
augment that with the uncertainty in the knowledge? That is the 
kind of thing that the BCI is struggling with.
    Mrs. Miller. I appreciate that.
    I recognize the Ranking Member for any questions you may 
have.
    Ms. Jackson Lee. Madam Chairwoman, thank you.
    The line of questioning, I think, is enormously important 
on a very important policy journey that this country is making.
    So gentlemen and lady, this committee is making, I think, a 
very sound effort as I work with the Chairwoman on establishing 
a bracket of which we can stand on.
    I am very glad that the leadership on this committee has 
shown an openness to the idea of a policy decision being made 
about comprehensive immigration reform.
    Speaking for myself, I will say that I embrace it totally 
and believe that it is a long-overdue policy and legislative 
initiative that should be passed, and I recognize, as the 
Chairwoman has indicated and I think we have said it together; 
No. 1, this committee should be an intimate part of the border 
security aspect, but at the same time, facts are really the oil 
to the engine and I would say to the Department you have got to 
get in the game. What I am hearing here is not really a 
definitive game strategy.
    When I say that, this is the second hearing, this is a 
hearing based upon an assessment, and I am not getting, I 
think, what could be not where you tie yourself to what you 
believe you could not tie yourself to, but where you can give 
confidence that the trends are leading to the kind of security 
that we need.
    So let me just cite again the December 2012 Government 
Accountability Office report that was drawn through the request 
of Ranking Member Thompson and Mr. Barber, which I associate 
myself with the request now in this position, and to note that 
some of the data indicated that eight of the nine Border Patrol 
sectors on the Southwest Border improved from fiscal years 2006 
to 2011, and that GAO also found that the recidivism rate 
across dropped to 36 percent in fiscal year 2011, down from 42 
percent.
    So those are some indicia that one can cite, but maybe what 
you should indicate as we have put to the side operational 
control that the security of the border is a continuum, that it 
is a challenge and a responsibility that is on-going, that you 
have confidence that the maximum level of ability the border is 
secure, but that collaboration with State and local officials 
and information gathering is a continuing challenge along with 
technology.
    Now Members of Congress should be able to understand that 
if that is asserted in an affirmative manner. So let me proceed 
with my questions to say that at some point, we are going to 
have to have DHS work with us more concretely about the 
confidence of the security of the border, and I would add to 
that I recognize that we have a distinctive topography along 
the border.
    Mr. Barber needs help. He will speak for himself, but he 
has an Arizona desert border that we need to be assured that we 
can work with, and I believe we can, but you got to own up to 
it. I don't believe that we should hold up comprehensive 
immigration reform because as Judge Escobar said, that will 
contribute to your being able to do a better job.
    Let me raise these questions. I would like to go where the 
Chairwoman has gone. I would like to give us the meat and 
potatoes that we need.
    First of all, I want to ask: Are we using the Z Portal 
system? I understand that new technology has been given a lot 
of awards, and how is that effectively securing the ports of 
entry?
    Mr. McAleenan. Thank you, Ranking Member Lee.
    Yes, we are using the Z Portal. We, with the support of Mr. 
Borkowski's office and our Office of Information Technology, we 
have purchased a number of Z Portals and a similar technology 
called ZBBs that operate more quickly at a lower level of 
radiation and allow us to scan many more vehicles and actually 
Z Portal on the Southwest Border we have several bus portals as 
well.
    This has been a tremendously effective tool for us in 
identifying and seizing additional illicit drugs.
    Ms. Jackson Lee. My question is: Do you continue to get the 
technology as it improves and increases and about how many of 
your ports of entry do you know that you are using that Z 
Portal?
    Mr. McAleenan. We have NII lay down at all of our ports of 
entry that take cargo and we use it to inspect that.
    Ms. Jackson Lee. Give me how many.
    Mr. McAleenan. I can give you the numbers on the ZBBs and Z 
Portals in a follow-up if that is okay.
    Ms. Jackson Lee. You are continually improving that 
technology?
    Mr. McAleenan. Absolutely. We use the American Recovery and 
Reinvestment Act to purchase a number of very effective systems 
that we are applying.
    Ms. Jackson Lee. Would you suggest that that is helping 
provide security at the border or giving an answer to those who 
are trying to hear do we have--I know that is not the newest 
technology, but is that part of the security that you are 
talking about?
    Mr. McAleenan. Our non-intrusive inspection technology is 
absolutely a critical tool that we are using to increase 
security.
    Ms. Jackson Lee. Okay, now I asked this, but I need to hear 
it again. So how are you moving up on the ladder of technology 
as it relates to that kind of technology? Are you constantly 
being able to upgrade it to your satisfaction? Do you believe 
the present technology is satisfactory?
    Mr. McAleenan. Well, we have been upgrading of the last 
several years the Z Portals and the ZBBs that we just talked 
about are more efficient because they work faster and they have 
a lower energy level that allows us to put more vehicles 
through them. So yes, we have been able to benefit from an 
improving continual technology.
    Ms. Jackson Lee. Mr. Borkowski, let me, because you are the 
center point of intellect around this issue and seemingly have 
been given the responsibility of sort of holding on to the BCI, 
and I assume that you use a lot of analytics to be able to give 
it some substance, you heard what I said.
    You all have got to rise to the occasion. If we are not 
using operational control, then you have got to tell me that 
Northern Border, here is how we assess and we can tell you that 
we are making progress. The GAO report gave some numbers. I 
don't know if under the GAO report it is a weak economy that 
saw those numbers go down, and DHS needs to be able to tell us 
that.
    Secondarily, the border that raises a lot of concern is the 
Southern Border, so what are the concrete measures that you 
would say could definitively be interpreted to have us in a 
continuum of securing the border?
    Mr. Borkowski. If you are talking about for example between 
the ports of entry, so I won't talk holistically unless you 
would like me to, but if you are talking about between the 
ports of entry, I think what is important there is whether or 
not we have got the capability to deal with the threat that the 
chief of the Border Patrol perceives.
    So chief of the Border Patrol can measure that not 
quantitatively, but in a very disciplined way, and compare that 
to the capabilities we have.
    If you add to that the information he has about 
effectiveness, I think that is a very important metric. So if 
you take and you assess whether the Border--chief of the Border 
Patrol has the capability he thinks he needs to have to watch a 
border and he has a good effectiveness ratio, I would say that 
is a pretty good indicator that the border is secure in that 
area. That is between the ports of entry.
    Ms. Jackson Lee. Well, okay. Let me just stop here. If I 
could just, Madam Chairwoman, just get my last two questions 
very quickly.
    I will take that, and some others may pursue that.
    Let me just say to Judge Escobar. In a testimony in the 
Senate, one of the witnesses indicated that Dr. Shirk of the 
Transborder Institute of the University of San Diego indicated 
that what we are seeing in actuality with migrants coming 
across is that the enforcement has actually caused more deaths, 
400 I think in one of the years that he was speaking of, in our 
enforcement process and these are only individuals that are 
trying to work.
    You somewhat commented on that. I would appreciate it if 
you would. I would just throw this very quick question out so 
then I can get the answers from the other three gentlemen, but: 
Utilization of drones, how much of it and whether you have seen 
that have any impact. Let me go to Judge Escobar very quickly, 
please, on this idea that migrants--that you have seen deaths 
because of the enforcement as opposed to finding an immigration 
reform process for that.
    Judge Escobar. Thank you very much, Ranking Member. You are 
absolutely correct.
    What happens when the United States puts up the walls that 
we have put up in our Southern Border, it does not stop 
necessarily the flow of people who are trying to find work in 
our country and also some of the bad folks who are trying to 
smuggle drugs and the coyotes who move those people across our 
borders.
    It just pushes that movement into more treacherous 
territory, terrain that is more challenging for these families 
trying to reunify with their families or trying to get work. So 
if we deal with those people who can be addressed through 
policy changes, through reform, it will do what former Border 
Patrol Chief Aguilar said, which is de-clutter the environment 
for law enforcement.
    Ms. Jackson Lee. Thank you very much. I will wait on that 
other answer.
    Mrs. Miller. We may be able to go to a second round. We 
will see how we do.
    Ms. Jackson Lee. Thank you.
    Mrs. Miller. I would just appreciate the gentlelady's 
questioning. I thought one thing she said that was very 
significant is when she asked the Department to get in the 
game, and I think that is a very good way to put it.
    You do not want the Department of Homeland Security to be 
the stumbling block to comprehensive immigration reform for 
this country and it could happen. So get in the game. I 
absolutely would agree with that.
    At this time, the Chairwoman would recognize the gentleman 
from Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you, Madam Chairwoman.
    Judge Escobar, in your testimony you talk about the need 
for reforming our immigration system before we spend enormous 
resources trying to secure our borders from migrants who are 
looking for a better life specific to El Paso.
    You argue that if it were easier for Mexicans to go back 
and forth that they would be less likely to want to live here 
permanently.
    However, many of the 11 million illegal immigrants came in 
through our international airports, whether it is El Paso 
International Airport or Philadelphia International Airport in 
my home State, I believe anywhere where there is an 
international airport you are a border State.
    In my home city in Hazleton, Pennsylvania, it is estimated 
that 10 percent of our population is there illegally. We are 
2,000 miles away from the nearest Southern Border.
    Judge, are you aware that 40 percent of the people who 
enter the country illegally didn't sneak across the border, but 
entered legally and overstayed their visa?
    Judge Escobar. Yes, sir, I am. I--the perspective that I 
bring to you and that I am trying to share with you this 
morning is the perspective of a Southern Border community that 
has ports of entry.
    You are absolutely correct in that visa overstays need to 
be tracked, and in fact, that is where some of the threats are 
coming from, which actually goes to my point that if we enact 
immigration reform that deals with people who want easier 
access along my Southern Border to come in and visit family or 
to reunify with family or to work in construction jobs that 
American companies give them or to work in agriculture, which 
are jobs given to them by American farmers. If there is a 
mechanism and there is a mechanism through policy to address 
those individuals then it becomes easier--I would submit--it 
becomes easier to track those visa overstays because we are 
utilizing resources to deal with a smaller population of 
immigrants.
    Mr. Barletta. You know, the question is, you had stated 
that 90 percent just come for work, they are not involved in 
any criminal activity. How do you separate salt from sugar? How 
do you separate--how do the men and women who are protecting 
our borders separate the 90 percent from the 10 percent who 
will do us harm?
    In 1986, Congress promised the American people that if they 
gave amnesty to 1.5 million illegal aliens--turned out to be 3 
million; it doubled as soon as we waived the carrot of American 
citizenship--that they would give amnesty--this would be a one-
time deal--we would secure our borders and we would never deal 
with this again.
    Now here we are years later, 11 million estimated which I 
believe will be more again because we are now doing the exact 
same thing. History has taught us nothing. What makes the 
promise of this Congress, the Gang of Eight in the House or the 
Senate or the President--what makes--what makes this promise to 
the American people any different than the one in 1986?
    Judge Escobar. You know, I think the challenge for Congress 
is when it puts the decisions off over the years then and you 
are not dealing with them on an annual basis, then you are 
going to end up in situations like we are in today in this 
Nation when we are having to deal with 11 million people who, 
as the saying, the cliche goes, are living in the shadows. So 
it should not be a one-time fix.
    Policy and reform should be on-going. You can't just do it 
every 20 years. Immigration, the flow of people, the reasons 
why they come across, the reasons why businesses want certain 
types of workers, that is going to change year after year after 
year.
    So I would encourage the Congress not to think of this as a 
one-time fix that we are never going to have to address going 
into the future, but instead, as an on-going long-term 
challenge that, as the Ranking Member described it or maybe it 
was the Chairwoman, as a journey that the Congress is going to 
need to address every year through its budgets and through 
policy reform.
    Mr. Barletta. You know, also, you talk about the need for 
reforming our guest-worker program. As you remember, 1993 World 
Trade Center bomber, Mahmud Abouhalima, overstayed a tourist 
visa and was in the country illegally. He received amnesty in 
1986 by falsely claiming to be a seasonal agricultural worker 
even though he was a cabdriver.
    You argue that most migrant workers pose no threat, but one 
of these agricultural workers was actually an Islamic terrorist 
who perpetrated one of the deadliest attacks in American 
history.
    If you could prevent just one terrorist from being granted 
legal status, wouldn't you agree that it is worth the wait?
    Judge Escobar. I think one of the things that is difficult 
is to define security because security may mean something very 
different for you than it does for me.
    You may be talking about absolute security saying that if 
we want to be secure, then we have to somehow someway maybe 
seal the borders or do everything possible to achieve absolute 
security.
    That is not an achievable goal. It is not possible to have 
absolute security.
    Mr. Barletta. But my question is if you could stop one 
terrorist----
    Judge Escobar. Well, the answer is, of course.
    Mr. Barletta. Okay.
    Judge Escobar. But--I am sorry.
    Mr. Barletta. You also testified that history has shown 
that the Southern Border does not present a security threat. If 
most of the illegal immigrants who are sneaking across our land 
borders or ports or overstaying their visas are just looking 
for work, then I would argue with you that they do present a 
threat.
    They present a threat to the millions, millions of 
Americans who are out of work and looking for a job. Our 
immigration laws are meant for two reasons; protect the 
American worker and to protect our National security.
    How can you support policies to allow businesses to hire 
cheap labor at the expense of our Nation's workers, American 
workers, when your own town of El Paso has a higher 
unemployment rate than the National average?
    Judge Escobar. I would submit to you that if those workers 
were given legalized status, they would be adding to the tax 
base and they would be contributing to our economy in a way----
    Mr. Barletta. Well, there was just a study that proves that 
that is not true. That if we grant amnesty to the 11 million 
illegal aliens, the Heritage Foundation completed a study that 
it will cost us $2.6 trillion over the next 20 years.
    This is after all the tax revenue is realized. This is a 
time when we are trying to balance our budget. We are trying to 
find more money for the men and women who protect us, but by 
granting amnesty, this plan of pathway to citizenship will 
actually cost us $2.6 trillion after taxes.
    Judge Escobar. Well, I have read studies to the contrary 
and so, really when you talk to economists, they are a great 
guide for some of our most challenging policy decisions. 
Economists generally will agree that adding those folks into 
our country in a way that they can make contributions, it 
certainly does contribute to our economy.
    Mr. Barletta. Could you identify any of those economists?
    Judge Escobar. You know, I am sorry, I apologize. I did not 
bring the list with me. I would be happy to forward studies and 
names through my Member of Congress who serves on this 
committee.
    Mr. Barletta. I trust the Heritage Foundation. Thank you.
    Mrs. Miller. Thank the gentleman very much.
    At this time, the Chairman recognizes Mr. O'Rourke, from 
Texas.
    Mr. O'Rourke. Thank you.
    I want to commend the Chairwoman for her focus on this 
question of how we define border security, and as she said 
earlier, I think it is one of the most important questions that 
we as a subcommittee, a full committee, a Congress, and a 
country answer because--you know, the fate of comprehensive 
immigration reform hinges on this. I think the fate of 
communities like El Paso, other border communities, and our 
National economy depend on our ability to answer this in a 
thoughtful, intelligent, rational way.
    So I appreciate her leadership and I also want to thank her 
and Ranking Member Jackson Lee for giving us the opportunity to 
hear from our county judge who is able to bring her experience 
and perspective to bear on an issue that I would argue 
disproportionately affects her constituents in the community of 
which she presides over as county judge.
    Judge Escobar, I wanted to ask you a question about an 
opportunity that might become available in the near future.
    Chairman McCaul of the full committee, Congressman Cuellar, 
and others including on the Senate side, Senator Cornyn are 
introducing legislation that will allow communities like ours 
to partner with the Federal Government to provide necessary 
resources to speed the flow of this legitimate trade that 
Acting Commissioner McAleenan talked about--the 99.5 percent of 
the flow coming through our ports of entry that is completely 
legitimate that has the appropriate documentation.
    What do you as an El Pasoan, as a county judge, as somebody 
who might ask one of the poorest communities in the country to 
pony up additional resources to speed this flow, what do you 
need to know before you can advocate for this kind of 
partnership and ask your constituents to dig in a little deeper 
to help us solve this problem?
    Judge Escobar. Well, thank you very much Representative 
O'Rourke, and I appreciate that you are one of the co-sponsors 
of that bill, a bill that could help communities like El Paso 
provide adequate resources to easing that flow back and forth.
    The challenge as I briefly mentioned in my comments this 
morning is that if we don't have the metrics, we are talking 
about metrics today, if we don't have the specific number of 
personnel shortages at the ports of entry--so if we don't have 
the statistics that tell us how many individuals, how many CBP 
officers are at the ports, how many lanes are closed due to 
personnel shortages.
    If we don't know that and we are asked or we are saying 
that we are willing to put up money and participate in this 
partnership, we cannot know nor can we guarantee to the public 
and the local property taxpayer that it is actually going to 
plug those holes and to address those gaps.
    So that is a critical component of the metrics I would 
argue that you all should demand from your agencies.
    Mr. O'Rourke. Let me ask, Acting Commissioner McAleenan, 
there is this a very legitimate concern that we not supplant 
Federal resources that should be obligated to border 
communities like ours, and instead, if we are going to 
contribute, it is a supplement to what you are already doing.
    Without your willingness to share that data that the judge 
and others in our community are asking for, how can we make 
that informed decision and ask our citizens to contribute in 
this way?
    Mr. McAleenan. Thank you, Congressman. I think it is a 
reasonable point and a couple thoughts in response. First, if 
we had this legislation and we were able to enter into those 
public/private partnerships that were deemed to be in the 
economic interest of the local communities, that would be a 
partnership situation where there would be commitments to 
increase service levels based on that augmentation. So I would 
make that commitment very clearly right now.
    In terms of the overall availability of data on exact 
staffing and specific ports of entry, that is something that we 
are working towards with our workload staffing model. That is 
something we intend to deliver and have a robust conversation 
about with this committee and with the Congress more broadly 
this year.
    I think that will help us share data about where we are and 
where we think we need to be, and would really provide a good 
foundation for pursuing legislation like you have offered or 
other agreements of the similar type.
    Mr. O'Rourke. But when--I want to make sure I understand 
your answer. We can expect to have that specific staffing 
information and the larger set of data that you are talking 
about this year?
    Mr. McAleenan. That is CBP's intent and my understanding it 
is the administration's effort.
    Mr. O'Rourke. Okay. I appreciate that. Then in the brief 
time I have left, the judge brought up an important point I 
think that you know, the prevailing wisdom right now is that 
prior to comprehensive immigration reform, we need to secure 
the borders.
    You and Acting Commissioner McAleenan have said our borders 
have never been more secure and the judge is saying after 
comprehensive immigration reform I think we can look forward to 
even greater security because of your ability to focus on your 
top priorities in terms of threats and those are of course 
terrorists, people who want to do our country harm, the weapons 
that they might be trying to bring across to do that.
    Can you respond to that and talk about how that might allow 
you to free up resources or better prioritize the resources 
that you have right now? Chief Fisher. Sorry.
    Chief Fisher. Certainly, Congressman. I just--a point of 
clarification from my perspective. I generally don't like to--
or broadly characterize the border in its entirety one way or 
the other, right. So I can tell you at any point in time that 
there are areas along the border that are of higher risk, more 
activity level, problematic, higher rates of assaults against 
my Border Patrol agents, and there are other areas to the 
contrary.
    That is part of this risk assessment piece. I will also 
state that when we are talking broadly about threats, generally 
folks outside of the organization look at the individuals and 
the groups of individuals that come into this country after we 
know a lot about them.
    But what I would ask to also take into consideration is the 
Border Patrol agent who last night perhaps in an area in the 
Nogales area in the mountains, or perhaps the Border Patrol 
agent who is working south of the Otay Mountain, or another 
Border Patrol agent who was working the river last night.
    Each one of those agents in various different circumstances 
is being approached by individuals; many times those agents are 
alone. Sometimes it is a group of two; sometimes it is a group 
of 10. Those Border Patrol agents do not know who those people 
are, nor do they know what those individuals intend to do once 
they are encountered by the Border Patrol agent.
    Therein lies what we qualify as a risky situation. All 
right? Not everywhere. What we do find out and post arrest 
based on biometrics and bio graphics, we then try to set who 
these people are, what they intend to do. Then there is a whole 
series of consequences. There is a whole series of dispositions 
that would fall either in the administrative or in the criminal 
context.
    But what generally happens; people then take a look at an 
overarching population of people that we apprehend, it may be a 
3-month period, it may be a year period, and then try to 
qualify the risk that we are trying to define after that risk 
has been adjudicated.
    So it is really important that we frame that. It is not 
all-or-nothing proposition when it comes to security. It is 
graduated based a lot more on what we do and what we don't know 
and it is our continued ability to learn to get better to be 
able to provide those Border Patrol agents in those scenarios 
that I just described with advanced information, the right 
training, the right equipment, the integrated operational 
approaches like our strategy is going to do along with our 
ability to rapidly get into areas so that it puts them in a 
better position to reduce risk for themselves and for the 
citizens in which we serve.
    Mr. O'Rourke. I am out of time, but I would like in the 
future perhaps directly from you or in writing, a direct 
response to the proposition made by the county judge that with 
CIR you can better prioritize resources and look forward to 
even better security along our border than we have today.
    So, thank you and thank you, Chairwoman.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from Arizona, 
Mr. Barber.
    Mr. Barber. Thank you very much for letting me sit in on 
this hearing. I am not a Member of this subcommittee, but this 
hearing is very important to me, and I appreciate the 
opportunity to be here to meet the witnesses and to ask some 
questions.
    First of all, I want to thank the witnesses for coming 
today. Some very, I think, helpful testimony.
    You know, the men and women of the Border Patrol who I work 
with a great deal face incredible dangers every single day and 
you put your finger on it, Chief Fisher, when you talked about 
the incidents: Rockings, rip crews that are trying to steal 
drugs from other smugglers put people in jeopardy. Brian Terry 
as you know was killed possibly by a rip crew.
    So what they are going through every single day is not 
fully appreciated by the American people. Sometimes when I stop 
at the checkpoint coming back to Tucson I say as I am leaving, 
``Thank you for your service,'' and they look at me with a 
startled look on their face like, ``You are thanking me? No one 
does that,'' or not enough people do.
    So I just want to say up front that what your men and women 
do is absolutely amazing, heroic, and very important to our 
country's security.
    I think that what we need to do is make sure that they have 
the resources they need to get the job done. I am very 
concerned about sequester. Of the 35 to 40 percent cut in 
salaries that the Border Patrol agents will face, with a loss 
of furlough, with the loss of overtime and furloughs, we cannot 
step back and move backwards from the improvement that we have 
made in border security.
    If we do, as the Chairwoman has said, many issues relate to 
this. The future of comprehensive immigration reform depends on 
our continued efforts to secure the border. Whatever that 
means, Judge, I agree with you on that.
    That is part of the problem. The central question really 
is: How do you define border security? We have been talking 
about it for decades and more recently in the last 6 years we 
have put a lot of billions of dollars of resources into it.
    When I talked to ranchers for example and they tell me that 
they are unsafe on their land and that they can't go to town 
without taking their children with them and that they go to the 
clothes-line armed or they go on their land fully-armed to 
inspect their water lines, then we are not secure from their 
perspective because they are not safe.
    If you go to Nogales or Douglas where the build-up is 
significant, people feel differently about it. So it is a 
matter of where you are and what you are facing. So we have to 
come to terms with this definition of border security and we 
have to plug the holes that exist.
    In my district alone, 50 percent in terms of poundage of 
the drugs seized in this country are seized right in my 
district; the most porous area of the country. We have to do 
better and I know, Chief Fisher, you want to do more and 
hopefully we can continue to plug those holes.
    But when it comes to measuring border security, the issue 
in front of us today, we really are, I think, not doing as good 
service to ourselves, to the Department, or to the country when 
we cannot have what the people would consider credible and 
reliable metrics to define success.
    I am alarmed to say the least by the most recent jail 
report which was referred to by the Ranking Member that came 
out and pointed out that the Border Patrol rolled out last May 
a new strategy that didn't have goals, it didn't have metrics, 
it didn't have a process for evaluation.
    That is not really a plan, is it? Now obviously the 
Department has to do something. So I guess I want to go to that 
point specifically, Chief Fisher, you know, I have the highest 
admiration for what you do and it is good to see you again and 
what your men and women do, but we have to give them consistent 
ways of measuring success.
    So can you ask or can you tell us where we are in the 
process of developing those metrics that will fill the big 
holes in that plan? Where are we right now? The Department 
promised it would be done by November. Could you give us an 
update on where we are?
    Chief Fisher. Sure can, Congressman. First of all, it is 
good to see you again, sir, and thank you for those kind 
comments. It certainly gives me great pride to serve those 
Border Patrol agents here in Washington, and when I go through 
the checkpoints, I do make sure that I think them as well. So 
thank you for doing that.
    We do have metrics. Matter of fact, unfortunately, part of 
my opening statement that I would like to share with you really 
labeled just four or five as examples.
    When the GAO did that report, they did so--we worked with 
Rebecca Gambler and her team--provided an array of metrics and 
measures of things that we were looking at as it related to our 
new strategy.
    Part of their analysis interestingly enough was they went 
back about 2006 to 2011, and as you recall, we just recently 
over the past year just-released the strategic plan.
    Many of those measures over the past 3 years we have been 
gathering some of which we have been just analyzing 
differently, some of which we created whole new different sets 
of data, things like the consequence delivery system, things I 
had mentioned earlier; just quickly, the recidivism rate, the 
average rate of--the average apprehension per recidivist.
    We take a look at unique subjects. We look at deflection 
and how that is differentiated between displacement. I would 
welcome the opportunity to sit down with you or members of your 
staff to go through those in detail, sir.
    Mr. Barber. Madam Chairwoman, could I just ask one more 
question? I know my time is up.
    It is really important that the Department when it devises 
these new metrics that are going to be now completed by 
November, that the stakeholders are involved in helping you 
define what success is.
    I am talking about the business people, the residents, the 
ranchers, the Border Patrol agents themselves. I talk with 
those men and women all the time. They have got incredible 
insights about what goes on as you well know because they are 
there. The ranchers are on their land every single day.
    What process can you tell us about it that will include 
input from those vital stakeholders before we actually finalize 
and submit these metrics?
    Chief Fisher. Well, Congressman, when I am out in the field 
and talk with them, the things that are brought to my attention 
are, well Chief, can you tell us a little bit about your 
ability to see things through broader situational awareness 
although they don't use those terms necessarily, but what they 
are talking about is our ability for broader situational 
awareness.
    How can you tell me, either its technology or whether it is 
through intelligence or agent deployments, can you tell me what 
is happening around my area? Because when my dog barks at 
night, my wife is scared.
    I understand that perception, right. Each area of the 
border, I am glad you brought that uniqueness out, is very 
different, right.
    So what we are training the organization to do, 
understanding the direction where we are going and defining 
this risk-based approach versus a resource-based approach 
because you are right and Chairwoman Miller really set the 
stage.
    I can't go to those ranchers and say, ``Hey, you should 
be--you should feel safer because we have an integrated fixed 
tower 5 miles down the road and I just doubled the size of the 
Border Patrol station in Douglas over the last 3 years.''
    That doesn't change the fact that the perception, whether 
it is real or not, depending upon what the activity is.
    Our approach with the field leadership is, to the extent 
that we are able to with information, is to explain to them 
what we have in terms of information. What we know is happening 
there so they understand not just, ``Hey, would you call us 
when you see something suspicious?'' We want to be able to tell 
them what that is.
    The second thing is we want them to know to the extent that 
we are able to, what we are doing about it and in some cases it 
may be deployments. It may be, hey, we are going to have Border 
Patrol agents in the area tonight. You are not going to be able 
to necessarily see them because they are going to be working in 
these general areas. We want you to call them because they are 
going to have the ability to respond if you see them.
    Or we are working some technology you may be aware of; I am 
out in the East County and the Douglas area and I would be 
happy to go into further detail outside of this hearing to do 
that.
    Mr. Barber. I want to thank the Chairwoman, and I would 
repeat what you and the Ranking Member said. Please get in this 
game fully. We need it in order to move forward with 
comprehensive immigration reform. We will not get there without 
your help.
    So thank you Madam Chairwoman.
    Mrs. Miller. Thank the gentleman, and I thank him for 
joining the subcommittee today as well.
    At this time, we are going to go to a second round of 
questions, but in the interest of time, we will keep it to 5 
minutes. With that, I would recognize the Ranking Member.
    Ms. Jackson Lee. Thank you so very much.
    I am in a meeting interestingly enough with leaders of 
commercial airports in the anteroom here and so I wanted to 
quickly get some additional inquiry in. But first what I would 
like to do is to say that on behalf of all of the Members, we 
thank all of the men and women for their service and we thank 
Congressman Barber for his initial comment. But this 
appreciation of service goes along with inquiry, and Chief 
Fisher I think that the detailed presentation that you made to 
the question of the Congressman from Arizona is the framework 
that myself and the Chairwoman who have committed to working 
together. This is a, sort of, inquiry that we are making 
together and the framework is one that we are making together.
    That detailed, nonclassified response is the kind of 
package that we are going to need, if you will, as we move 
forward in a parallel structure to have extra tools for you 
through comprehensive immigration reform and then of course the 
tools that you necessarily need at the distinctive borders.
    Let me pose right to Mr. McAleenan quickly, and if I can 
get a sequester answer from all three that is just a yes or no.
    Chief Fisher, is sequester impacting you negatively, 
prospectively?
    Chief Fisher. We do have reduced capability as of March 1.
    Ms. Jackson Lee. I am sorry?
    Chief Fisher. We do have reduced capability as of March 1.
    Ms. Jackson Lee. Thank you.
    Mr. McAleenan.
    Mr. McAleenan. Yes.
    Ms. Jackson Lee. Mr. Borkowski, you are obviously, but----
    Mr. Borkowski. Yes.
    Ms. Jackson Lee. All right.
    If I can bring to your attention and for us to get back 
together, JFK airport is experiencing through a message to me 
from Congresswoman Clarke, we are very concerned and Bush 
Intercontinental Airport is of great concern and let me just 
give an example of one besides the--and if you could just give 
a quick answer--besides the idea of sequester which you have 
already said. However, we have Air China possibly bringing in 
about $400 million, wanting to leave Bush Intercontinental 
Airport at 1:30 a.m. and your staffing and again, this is not a 
pointed blame, it is how can we resolve this, is indicating 
they have no leverage, staffing, et cetera after 12 a.m.
    That is a very difficult challenge and are you familiar 
with this quandary that we are in? Can you provide us a report 
back? You want to mix that in with your sequester issue? They 
will start--this is going to start, I think, in--you are--look 
like you are starting some decreases in April, and this is 
going to start soon thereafter.
    Mr. McAleenan. Quick response now and I would be happy to 
follow up in greater detail.
    The challenges that you outlined at our major international 
gateway airports are certainly present. We have seen tremendous 
growth in your environment.
    JFK you mentioned, 14 percent over the last 3 years and 
about 5 percent so far this year. Houston, we have seen 23 
percent over the last 3 years, continued growth this year and 
we have got a robust strategy to try to address that with our 
existing resources of both our scheduling, our collaboration 
with the airports.
    Houston you know, you are familiar with our Express 
Connect; our one stop----
    Ms. Jackson Lee. Right.
    Mr. McAleenan [continuing]. Trying to move those passengers 
is----
    Ms. Jackson Lee. Can I work with you on those specific 
issues? I am going to cut you off just because I need to get 
these other--this other question in. Can I work with you on 
those specific issues?
    Mr. McAleenan. We would love to do that.
    Ms. Jackson Lee. All right. Thank you.
    Let me just ask this question. Tell me the utilization of 
drones--what is--how much--that is nonclassified--who uses it 
and, Chief, I guess I would go to you and Mr. Borkowski, very 
quickly.
    Chief Fisher. Yes, it provides us a critical capability in 
terms of broadening our situational awareness and adding to the 
suite of technology that we and this particular committee have 
supported graciously by the way for our ability to secure this 
country.
    Ms. Jackson Lee. Mr. Borkowski.
    Mr. Borkowski. It does two key things for us. No. 1, it can 
get to areas that it is very difficult to put ground-based 
technology and get up over them and it can move into them as 
the Border Patrol needs.
    The second thing it provides us is kind of strategic 
information. It is one thing to have information that is real-
time, the camera that I am going to ask the Border Patrol go 
respond to what this camera sees. The predator also allows us 
to get an idea of whether or not things are changing on the 
border.
    So where we think some things are not happening, we can go 
check and confirm that it is not happening or learn that that 
has changed and then the Border Patrol can adapt to it. So 
those two key things are important to us.
    Ms. Jackson Lee. Madam Chairperson, let me thank you very 
much for allowing this, and I would just ask on the record that 
we possibly have--well, let me just say--and I want to possibly 
have that we have a classified briefing on the utilization of 
drones because I want to be both consistent with the 
Constitution as well as looking at that as a resource that 
these gentlemen are using. I really would appreciate--I think 
it would be important for this committee to have a classified 
briefing on the drone utilization.
    Let me thank you all for your testimony. Thank you for the 
second capacity to ask questions.
    Mrs. Miller. Thank you.
    At this time, the Chairwoman recognizes Mr. Barletta, from 
Pennsylvania.
    Mr. Barletta. Thank you, Madam Chairwoman, and again I 
would like to thank you for this important hearing. I believe 
it is very important that we educate Members of Congress before 
we make public policy that will affect our Nation as some of 
the proposals that we are hearing about will.
    My question is to Chief Fisher and Mr. McAleenan. You know, 
as I mentioned before, we could build fences across the entire 
country, north and south. We can protect our coastlines east 
and west, but almost half of the people that are in this 
country illegally didn't come in that way.
    It is important that I keep repeating this because I 
believe that it is a missing piece to how we determine whether 
our borders are secure.
    So I think it is very important for everyone to accept the 
fact that visa overstays are just as important as protecting 
our borders North and South. A person that sneaks across the 
Southern Border into El Paso and takes an American job is no 
different than somebody who overstays a visa and takes an 
American job.
    It is no different if someone crosses the border into 
Arizona and plants a bomb somewhere or someone who overstays a 
visa and plants a bomb. So I think there is a missing piece to 
this when we talk about whether our borders are secure.
    So even if Secretary Napolitano would declare that our 
borders are secure, I would argue that our borders are not 
secure, are not secure until we also deal with the fact that 
visa overstays are part of our National security 
responsibilities.
    So my question to Mr. Fisher and Mr. McAleenan; how do we 
fix this? We are talking a lot about how do we protect our 
borders and are you coordinating with ICE and how do we--what 
are some ideas that we might be able to impose to solve that 
problem?
    Mr. McAleenan. Thank you, Congressman. It is an important 
issue and I think from the Secretary on down, it is an 
important focus for the Department of Homeland Security and 
certainly for CBP.
    We are absolutely coordinating with ICE and with the 
Department of State to really address this from the early 
origination of the problem from when people are applying for 
visas, when people are applying as visa waiver country 
travelers to come to the United States, assessing those 
applications for risk at our international processing center to 
gather with State and ICE who are joining us to look at the 
same data with the best intelligence in our advanced 
techniques.
    So we are starting now much earlier in the process at the 
outset. I think the Secretary and others have defined the 
security process as critical at each juncture before the visa 
is issued, at the port of entry, assessing admissibility, 
following up, identifying and following up if there are 
overstays and of course, enforcing the laws on employers who 
put people to work who are here out of status. I agree we have 
to do all of those things.
    Mr. Barletta. Do you agree though that that should be 
included when we assess whether or not our borders are secure, 
that we also include whether or not we can track people in and 
out of the country when they overstay their visas?
    Mr. McAleenan. I believe it is included, yes.
    Mr. Barletta. Thank you.
    Mrs. Miller. Thank the gentleman.
    I would also, just to mention on this visa overstays 
quickly, it is something that this subcommittee has had a lot 
of conversations about even during the last Congress and you 
are spot on, Mr. Barletta, about the high percentage, in the 40 
percentile of everybody who is here illegally came here on a 
visa overstays as you mentioned, the 9/11 hijackers, several of 
them were here on a visa overstay.
    Since the committee really had very focused oversight on 
that, the Department of State has focused much more on trying 
to develop a robust exit system. We do pretty well getting them 
here, but not tracking when they leave and developing a robust 
exit system in dealing with what several hundred thousand 
backlog of visa overstays.
    I am not quite sure where they are at this time, but there 
has been quite a bit of progress but the largest room is a room 
for improvement. That certainly is true.
    With that, the Chairwoman recognizes Mr. Barber.
    Mr. Barber. Thank you again, Madam Chairwoman.
    Two or three quick questions. I want to go back for a 
moment if I could, Chief Fisher, to the question of getting 
input before these metrics are finalized.
    I think it is critical that it not only be done, but it be 
seen to be done and I would really urge you to convene public 
meetings where people who live and work along the border and 
back from the border can give you their sense of what it would 
mean when they say, ``The border is secure.''
    Because I think when we measure--when I look at it, I look 
at it anecdotally and I look at it empirically. The empirical 
data unfortunately is mixed. The GAO report showed that we have 
different ways of measuring or using data across the sectors; 
that is not helpful, but I do think the credibility of the 
metrics will be enhanced dramatically if we can have public 
input and it is seen to be done.
    So I urge you to really consider that as you go forward. 
Specifically now I want to ask a question about tools that can 
be useful. I have talked a lot about the area east of Douglas 
all the way to the New Mexico line which is wide-open 
territory, as you know, to mountains coming in from Mexico.
    The drug traffic into those communities across the 
ranchland and put people at risk. We have, I think at least for 
now, saved the Aerostat Program which was going to be taken 
down operated by the Air Force at least through this fiscal 
year. Hopefully it will be picked up by DHS next fiscal year.
    The Aerostat Program is our blimps basically that both have 
a visible deterrent as well as a very important tool for 
detecting incursions.
    Chief Fisher, you might want to take this under advisement, 
but I really think that if we can get another Aerostat, another 
blimp over the ranch area that I have talked about east of 
Douglas between there and New Mexico, it would have a great 
benefit because part of the problem is the cartel is coming 
through it the mountains and canyons are hard to see.
    So you may want to comment on whether that is feasible or 
whether that would be helpful and then the last question has to 
do also with increased resources.
    The Senate is sending us hopefully a CR that will increase 
the budget for CBP. Could you comment on if that passes, and it 
is going to be in the range of $250 million, how that could be 
used to offset the impact of furloughs and over time?
    So I posed a lot of questions to you at once: The 
stakeholder issue, the Aerostat, and the CBP increase hopefully 
that is coming.
    Chief Fisher. To your first comment and question, I would 
not disagree with you, Congressman. We will take that--and 
matter-of-fact, it is being done in some locations will make 
sure that the leadership within your area is involved as well.
    To the second, I will tell you briefly, we are always 
changing and our requirements for detection capability and 
perhaps Mark can talk a little bit broadly as it relates to 
whether it is a tethered Aerostat or other similar technology 
that is meeting our requirements.
    Third, once we settle with the numbers we certainly--the 
direction that I have given my staff here at headquarters and 
the commanders in the field is basically two principles.
    First and foremost, preserve to the extent that we are able 
to, our priority mission sets.
    Second, make sure that we can reduce, to the extent that we 
are able, to the impact on the agents, the employees, and their 
families. Within that construct, we intend to do just that, 
sir.
    Mr. Barber. Thank you very much.
    I yield back.
    Mrs. Miller. I thank the gentleman.
    Let me just say sincerely how much I again appreciate all 
of your service to the country and it has been said here 
already by other Members, certainly all of us certainly 
appreciate, so very, very sincerely the bravery and the heroism 
and the courage and the dedication 24/7 by those who are out in 
the field and serve our country so very, very well in helping 
to secure our border.
    Easy for us to sit here in Washington, you are probably 
thinking, asking you all of these questions, right, when you 
see what is going on in the field and I guess I just make that 
comment because I do want you to know that we do think about 
that and we see it and we do thank you so much for your 
service.
    But that being said, I think you can also understand and 
you see here that there is an increased focus here about trying 
to get to some sort of a measurement because I think many of us 
from the profession that we are all involved in, in elective 
capacity here see an opportune time in our country, a sort of a 
pivotal time, a historic pivot perhaps, to get some sort of 
immigration reform done.
    Perhaps. Perhaps not, but that conversation will not be 
being had with Members of Congress or the American people 
without asking this critical question of is the border secure 
and how can we measure it and do we, as I said, do we feel 
confident that the measurement that we are using, whatever it 
is, is something that is--that we can understand--and believe 
me, I know that sounds so simplistic.
    You are probably thinking, well geez, there is all these 
various components in it, but that is a question that we have 
to ask ourselves.
    Just as you say, how do you define success, right, in 
theater or in any kind of engagement and that is a question 
that we are trying to get to. So I think we are all very open 
on trying to ask the right question and understanding the 
components that go into the construct of an answer.
    So again, we will leave the hearing record open for 10 days 
and if any other Members have any questions of you, we would 
ask that you respond in writing, but we appreciate your service 
and we look forward to continuing to work with you as we do 
secure our Nation's border and move forward to serve the 
American people.
    Thank you all very, very much.
    Subcommittee is now adjourned.
    [Whereupon, at 11:43 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

           Letter From Veronica Escobar to Chairwoman Miller
                                    March 27, 2013.
The Honorable Candice Miller,
Chairman, Subcommittee on Border and Maritime Security, H2-176 Ford 
        House Office Building, Washington, DC 20515.
    Dear Chairwoman Miller, Thank you for inviting me to testify before 
the Border and Maritime Subcommittee on March 20, 2013. I enjoyed 
presenting the Members with the perspective of an active border 
community, El Paso, Texas. Ensuring safe and effective borders is a 
critical issue for our National and economic security.
    During the question-and-answer segment of the hearing, Rep. 
Barletta asked me to provide him with copies of some of the economic 
studies I referenced regarding the tax and economic growth benefits of 
an improved immigration system, including a path to citizenship for 
those currently residing in our country. I have forwarded those 
documents to his office along with all Members of the Subcommittee on 
Border and Maritime Security, but I would also like to ask that they be 
included with my testimony as part of the hearing record. The documents 
are attached.*
---------------------------------------------------------------------------
    * Congressional Budget Estimate has been retained in committee 
files and is available at www.cbo.gov/sites/default/files/cbofiles/
ftpdocs/72xx/doc7208/s2611.pdf. The Economic Benefits of Comprehensive 
Immigration Reform by Raul Hinojosa-Ojeda has been retained in 
committee files and is available at http://www.cato.org/sites/cato.org/
files/serials/files/cato-journal/2012/1/cj32n1-12.pdf.
---------------------------------------------------------------------------
    Thanks for your leadership on this important topic. I look forward 
to working with you and the committee in the future. Please do not 
hesitate to contact me if you have any questions or concerns.
            Sincerely,
                                          Veronica Escobar,
                                              El Paso County Judge.
                                 ______
                                 
                           Article, CQ Weekly
                      the economics of immigration
By David Harrison, CQ Staff, Nov. 26, 2012--Page 2376.
    The immigration debate has a new argument.
    For the past few years, those who favor allowing illegal immigrants 
a path to legal residence and eventual citizenship have based their 
campaign on moral grounds, that it is only fair and humane to bring the 
millions of undocumented immigrants out of the shadows, where they 
often are mistreated and underpaid.
    Those who oppose such a path to legality have countered with a more 
politically powerful assertion, that illegal immigrants take jobs from 
Americans and, in their millions, threaten to ruin the country and its 
economy. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Now, though, at the moment when President Barack Obama's re-
election has highlighted the growing voting power of Hispanic, Asian, 
and other foreign-born Americans, pro-immigration groups have begun to 
make an economic argument of their own.
    What's been mostly lost in the political back and forth in recent 
years is the considerable body of evidence that liberalizing 
immigration policies would, in fact, improve the U.S. economy. Experts 
and academics have run computer models of various legalization 
scenarios and found that they would all help brighten the Nation's 
economic prospects as it continues to struggle out of a recession.
    ``Putting these young people to work is good for the economy and 
creates jobs, just the opposite of what many people have argued,'' says 
Sen. Richard J. Durbin, the Illinois Democrat who is one of the most 
outspoken advocates of the DREAM Act, which would grant citizenship to 
many illegal immigrants brought to the country as children.
    ``Bringing these people out of the shadows who are undocumented,'' 
Durbin says, ``having them pay taxes, having them pay for the 
protection of basic laws, these things are good for the economy.''
    Most economists agree that a mass legalization program would have a 
net positive long-term effect on the economy, and that agreement 
includes even Harvard's George J. Borjas, whose studies of immigration 
and falling wages have long been cited by those who oppose more liberal 
immigration policies.
    The macroeconomic effects of an immigration bill, it seems, are not 
in question.
    The 1986 Simpson-Mazzoli Immigration Reform and Control Act, which 
gave a path to citizenship for illegal immigrants who had been in the 
country before 1982, had the effect of raising the wages of formerly 
undocumented workers by 15.1 percent within 4 or 5 years, according to 
one study commissioned by the Labor Department. That, in turn, boosted 
consumption and tax revenue.
    ``The economics is really clear,'' says Jeremy Robbins, director of 
the Partnership for a New American Economy, a coalition of mayors and 
corporate CEOs that was co-founded by New York Mayor Michael Bloomberg 
to seek more liberal immigration policies. ``If you get talented people 
here who want to work, the economy is going to grow. We don't have a 
zero-sum economy. And the same is true at the low-skilled end.''
    That doesn't mean that every American's life would be improved 
overnight. As with any significant policy shift, an immigration 
overhaul would create winners and losers, at least in the short term. 
Academics disagree over the details, in particular the question of 
whether the new influx of legal low-skilled labor causes wages for 
native-born low-skilled workers to drop.
    And that is part of what worries immigration opponents such as 
Lamar Smith, the Texas Republican who chairs the House Judiciary 
Committee.
    ``Jobs are scarce and families are worried,'' Smith said at a 
hearing last year. ``Seven million people are working in the U.S. 
illegally. These jobs should go to legal workers.''
    Nevertheless, even some Republicans are starting to probe a new 
path on the immigration debate, given the results of this month's 
election. Sen. Marco Rubio, the Florida Republican and Cuban-American 
who undoubtedly will play an important role on immigration within his 
party, noted during a Nov. 15 event at the Newseum in Washington that 
illegal immigrants fill a need in the economy that they could just as 
easily be filling as legal workers.
    ``If your economy is demanding 2 million people a year to fill 2 
million new jobs at a certain level, but you're only allowing a million 
people to come in,'' Rubio said, ``you have a supply-and-demand 
problem, and that supply of folks that need a job in Mexico or anywhere 
else in the world is going to meet that demand.''
An Uncertain Pathway
    When President Ronald Reagan signed the 1986 immigration law, he 
set in motion a process that would eventually put 2.7 million formerly 
illegal immigrants on the road to citizenship. First, the law granted 
them permanent residency visas--known as green cards--which also 
allowed them to bring immediate family to the United States. Over time, 
many of those green-card holders became naturalized citizens, woven 
into the fabric of the country. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Thanks to the law, immigrants were able to bargain for higher 
wages, pay taxes, build up their credit histories and apply for loans. 
Knowing that they were safe from deportation also made them more likely 
to learn English, get an education, buy houses and start businesses. 
They eventually settled down to raise thoroughly American children 
weaned on sugary cereals and Saturday morning cartoons.
    ``All around, it generated a burst in consumption as wages 
increased, but also in productivity, which is the economist's dream,'' 
says Raul Hinojosa-Ojeda, a Chicano studies professor at the University 
of California, Los Angeles, and an influential pro-immigration voice. 
``When you create a wage increase for a lot of people in the economy, 
they start spending a lot more. And we are all people that sell to 
them, so our economic activity goes up.''
    In a paper earlier this year for the free-market Cato Institute, 
which backed a more liberalized immigration system, Hinojosa-Ojeda 
estimated that a new immigration law similar to the 1986 overhaul would 
add $1.5 trillion to the country's gross domestic product--roughly 0.84 
percent--over 10 years.
    A less-expansive change that would simply create a guest-worker 
program, rather than legalize all 11 million undocumented people living 
here, would only create $792 billion in added growth, while a mass-
deportation plan would reduce GDP by $2.6 trillion, Hinojosa-Ojeda 
found.
    Another Cato Institute study in 2009 found similar results. 
Restrictionist policies would harm the economy, while legalization 
combined with a visa tax assessed on immigrants would add $180 billion 
to the economy each year. And a report last month from the Center for 
American Progress--which was founded by President Bill Clinton's chief 
of staff, John Podesta--reached a similar conclusion when looking at 
the DREAM Act, a more narrowly written immigration bill that would only 
grant a pathway to citizenship to the roughly 2 million young people 
brought to the United States illegally as children. The study estimated 
that passing the DREAM Act would generate $329 billion into the economy 
by 2030.
    Many of those studies point to the 1986 law as evidence.
Cost to Consumers
    Higher wages for a large swath of immigrants would also probably 
increase prices for consumers, making things like restaurant meals and 
lawn care services more expensive.
    For instance, today, roughly 70 percent of farm workers are illegal 
immigrants, largely because American workers refuse to take farm jobs. 
If government policy grants the undocumented workers legal status, they 
will eventually look for better jobs in other industries. That means 
the farm industry will either have to raise wages and prices or 
continue to hire illegal immigrants. Neither of those is a good option.
    Hinojosa-Ojeda says that although that may be true in the short 
term, over time, newly legalized workers would become more productive, 
which would offset the impact of their higher wages so that consumers 
would not notice much of a price change.
    Other researchers say the economy's need for a large pool of low-
skilled, low-wage workers is the reason why any mass legalization 
proposal should include a revamped guest-worker program that would 
allow workers more say over their employment and working conditions.
    ``Because of our border with Mexico, you really have to accommodate 
the demand for that type of labor with legal pathways,'' says Pia M. 
Orrenius, a senior economist at the Federal Reserve Bank of Dallas and 
a former adviser to the George W. Bush administration. ``Those can be 
set up to work for the benefit of both countries. It's not that 
difficult to set up working programs.''
    ``A lot of people don't want to stay permanently,'' she adds. An 
improved temporary-worker program would simply ``reinforce the circular 
migration that was there for many decades.''
Needs of the Market
    But guest-worker programs have traditionally been one of the 
thorniest parts of immigration policy. In 2006-07, when Congress last 
debated immigration legislation, labor unions opposed the guest-worker 
provision in the bill, saying the program would not be responsive to 
the needs of the labor market and would create a class of second-class 
workers with no rights and no hope of staying in the country. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    ``There has to be a rational, data-based way to determine when 
there's a labor shortage,'' says Ana Avendano, the AFL-CIO's 
immigration director. ``And when that's determined, employers should 
bring in workers to deal with those labor shortages. Those foreign 
workers should come in with full rights.''
    Avendano says she would favor a government commission that would 
use state-of-the-art labor market data to determine where the shortages 
are at any given point.
    Recent immigration overhauls introduced by two Democrats, Sen. 
Robert Menendez of New Jersey and Rep. Luis V. Gutierrez of Illinois, 
included such provisions, Avendano says. Senate Majority Leader Harry 
Reid, a Nevada Democrat, also has cited the Menendez bill as a possible 
starting point for next year's immigration debate. That makes Avendano 
optimistic.
    Despite its net positive effects overall, legalizing the status of 
millions of undocumented immigrants would not benefit everyone equally, 
at least not right away. Low-skilled American workers, in particular, 
who have been hardest hit by the current downturn, could find 
themselves competing with millions of new job applicants.
    ``The official unemployment rate for native-born Americans without 
a high school degree is well over 20 percent, and their underemployment 
rate exceeds 32 percent. That's also a third of that entire class of 
workers,'' Rep. Elton Gallegly, a California Republican, said during a 
hearing last year by the Judiciary subcommittee on immigration that he 
chaired.
    ``And yet at the same time, millions of illegal immigrants hold 
jobs,'' added Gallegly, an outspoken critic of loosening immigration 
rules. ``Even when low-skilled Americans can find jobs, their wages are 
depressed by illegals and other low-skilled immigrants.''
    Gallegly and other conservatives often cite the work of Borjas, the 
Harvard economist who favors more restrictions on immigration. One of 
his most-cited studies found a link between an influx of immigrant 
workers and falling wages.
    Between 1980 and 2000, Borjas has written, immigrants expanded the 
supply of working men by about 11 percent. That brought about a 3.2 
percent drop in the wages of the average American worker. The effect 
was strongest among high-school dropouts, who saw their wages decline 
by 8.9 percent.
    Borjas' results have been challenged by other economists, notably 
Giovanni Peri at the University of California, Davis. According to 
Peri, though immigrant workers may have some small negative impact on 
native workers in the short term, they actually lead to higher wages 
for Americans over time. That's because immigrants, many of whom do not 
speak English well, tend to take different jobs than native-born 
workers do. Immigrants will cluster in trades like construction, for 
instance, whereas low-skilled Americans will get jobs in manufacturing, 
he says.
    That means immigrant workers and native-born workers complement 
each other rather than compete against each other. In a post for the 
Federal Reserve Bank of San Francisco, Peri provides an example: ``As 
young immigrants with low schooling levels take manually intensive 
construction jobs, the construction companies that employ them have 
opportunities to expand. This increases the demand for construction 
supervisors, coordinators, designers and so on. Those are occupations 
with greater communication intensity and are typically staffed by U.S.-
born workers who have moved away from manual construction jobs.''
    Over time, many of those who would earn legal status would move up 
the economic ladder and compete with native-born workers for higher-
skilled jobs, but at that point they would blend into the American 
workforce and make it more productive, Orrenius says.
    ``Is that really a negative? I don't think we should call that a 
negative,'' she says. ``That productivity increase is part of economic 
growth, and that's something that's desirable. There was a time when 
they didn't want women in the labor force because they didn't want them 
to compete with men.''
Is There a Cost to Society?
    Opponents of legalization contend that legalizing millions of low-
income immigrants would drain social services. Sen. Jeff Sessions of 
Alabama, the ranking Republican on the Senate Budget Committee, has 
been particularly vocal on this point and has called for changing 
welfare rules so that less is spent on benefits to immigrants.
    ``One of the bedrock legal principles of immigration is that those 
coming to America should not be reliant on federal assistance,'' 
Sessions said in a statement this month. ``That principle has been 
steadily eroded.''
    During the 2006-07 immigration debate, the Congressional Budget 
Office found that the added costs of the legislation, especially its 
Medicare and Social Security costs, would outweigh the new tax revenue 
generated by the change. CBO reported that the 2006 immigration bill 
would have increased mandatory spending by $54 billion between 2007 and 
2016, largely because of immigrants' becoming eligible for entitlement 
programs. Discretionary spending also would rise by $25 billion from 
2007 to 2011, while tax revenues would rise by $66 billion by 2016, 
which is not enough to offset the added costs.
    But CBO acknowledged that its analysis did not take into account 
the possible economic growth that could occur after legalizing so many 
undocumented workers. That growth, the agency said, could boost tax 
revenues by anywhere from $80 billion to $160 billion between 2007 and 
2016, which would compensate for the increased government costs.
    There is another reason to believe that the increased use of 
entitlement programs would not put a substantial strain on the 
Treasury, Orrenius says. That's because any immigration overhaul that 
makes it through Congress almost certainly would include more visas for 
high-tech workers, a change that has wide bipartisan support.
    Those workers are more likely to earn higher wages, which means 
they'll contribute more in taxes than the value of the social services 
they will receive. ``High-skilled immigration is a big fiscal boon,'' 
Orrenius says. ``That balances out what is a fiscal cost on the low-
wage, low-education side.''
    So if a sweeping immigration overhaul is such a good idea from an 
economic point of view, why have advocates been so silent in making 
that case until now? The main reason seems to be that it is a nuanced 
argument that doesn't play well in bumper stickers.
    ``The argument for low-skilled immigration is a longer-term 
argument,'' says Robbins, of the Partnership for a New American 
Economy. ``It's a harder argument to make in a sound-bite context.''
    Since the election, however, some Democrats have started relying 
more on the economic case. And they have been joined by some 
Republicans hoping to strike a deal that could make the GOP more 
palatable to Hispanic voters, a fast-growing voting block.
    ``People that are here, even those who are here illegally, if 
they'd like to work, we ought to figure out a way to let them work,'' 
Sen. Rand Paul, a Kentucky Republican, said on the Fox Business Network 
on Nov. 15. ``I think immigrants are an asset, not a liability.''
    Any grand bargain on immigration remains a long way off. But if 
members of both parties can agree on the macroeconomic merits of an 
immigration overhaul, they may find it easier to convince skeptical 
colleagues and the public at large.
    FOR FURTHER READING: Path to citizenship, p. 2363; Immigration and 
employment, 2009 CQ Weekly, p. 2860; Bush-era overhaul effort, 2007 
Almanac, p. 15-9; 2006 Almanac, p. 14-3; 1986 overhaul, 1986 Almanac, 
p. 61.

                                 <all>

</pre></body></html>
